<html>
<title> - VIOLENCE AGAINST WOMEN IN THE WORKPLACE: THE EXTENT OF THE PROBLEM AND WHAT GOVERNMENT AND BUSINESS ARE DOING ABOUT IT</title>
<body><pre>[Senate Hearing 107-591]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-591

VIOLENCE AGAINST WOMEN IN THE WORKPLACE: THE EXTENT OF THE PROBLEM AND 
            WHAT GOVERNMENT AND BUSINESS ARE DOING ABOUT IT

=======================================================================

                                HEARING

                               BEFORE THE

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

    EXAMINING VIOLENCE AGAINST WOMEN IN THE WORKPLACE, FOCUSING ON 
COORDINATED COMMUNITY RESPONSE PARTNERSHIPS WITH EMPLOYERS, TO EDUCATE 
THEM ABOUT DANGERS OF DOMESTIC VIOLENCE, SEXUAL ASSAULT, AND STALKING, 
    AND ASSIST THEM IN ESTABLISHING EFFECTIVE POLICIES AND PROGRAMS

                               __________

                             JULY 25, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


81-045              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel

             Townsend Lange McNitt, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                        Thursday, July 25, 2002

                                                                   Page
Wellstone, Hon. Paul D., a U.S. Senator from the State of 
  Minnesota......................................................     1
Stuart, Diane, Director, Violence Against Women Office, Office of 
  Justice Programs, U.S. Department of Justice, Washington, DC...     3
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut....................................................     6
Evsich, Kathy, Vice President, Women Against Domestic Violence; 
  Sidney Harman, Executive Chairman, Harman International 
  Industries, Inc.; and Kathy Rodgers, President, NOW Legal 
  Defense and Education Fund, Washington, DC.....................    17

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Diane Stuart.................................................    30
    Liz Clairborne...............................................    33
    Kathy Rodgers................................................    34

                                 (iii)

  

 
VIOLENCE AGAINST WOMEN IN THE WORKPLACE: THE EXTENT OF THE PROBLEM AND 
            WHAT GOVERNMENT AND BUSINESS ARE DOING ABOUT IT

                              ----------                              


                        THURSDAY, JULY 25, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room SD-430, Dirksen Senate Office Building, Senator Wellstone, 
presiding.
    Present: Senators Wellstone, Dodd, and Murray.

                 Opening Statement of Senator Wellstone

    Senator Wellstone. [presiding]. I want to call the 
Committee on Health, Education, Labor, and Pensions to order.
    I want to thank the chairman of this committee, Senator 
Kennedy, for agreeing to hold this most important hearing 
today. The issue of violence against women in the workplace and 
the economic security of battered women is something that I and 
Senator Murray and Senator Kennedy and others have worked on 
for a very long time.
    I am honored to have such distinguished witnesses who can 
discuss better than I the extraordinary implications that 
domestic violence, sexual assault, and stalking have on 
families and on women's ability to be economically independent 
through work.
    We are here today to better understand how violence 
intersects with and impacts women's ability to work and thus 
support themselves so they may provide permanent safety for 
themselves and their children.
    It is quite obvious that the impact of domestic and sexual 
violence extends far beyond the moment the abuse occurs. It 
strikes at the heart of victims and their families' self-
sufficiency. Too often women are forced to choose between 
protecting themselves from abuse and keeping a roof over their 
head. This is a choice that no mother should have to make.
    Nor should any person face the double tragedy of first 
being abused and then losing a job, health insurance, or any 
other means of self-sufficiency because they were abused.
    Economic independence is a clear reason why people who are 
in abusive relationships may return to abusers or may not even 
be able to leave abusive situations in the first place. Abusers 
will go to great lengths to sabotage their partners' ability to 
have a job or get an education so that their partners will 
remain dependent on them.
    If we want battered women and victims of sexual violence to 
be able to escape the dangerous and often life-threatening 
situations in which they are trapped, they need the economic 
means to do so. Yet victims of domestic and sexual violence 
face very serious challenges to self-sufficiency every day.
    The link between domestic and sexual violence and poverty 
is clear. As many as 50 percent of domestic violence victims 
have lost a job due at least in part to domestic violence, and 
almost 50 percent of sexual assault survivors have lost their 
jobs or were forced to quit in the aftermath of assault.
    More than half of women on welfare have been victims of 
domestic violence. There is also a clear link between domestic 
violence and reduced worker and corporate productivity. The 
Bureau of National Affairs has estimated that domestic violence 
costs employers between $3 and $5 billion in lost time and 
productivity every year. Ninety-four percent of corporate 
security and safety directors at companies nationwide rank 
domestic violence as a high security concern.
    Homicide is the leading cause of death of women in the 
workplace. This hearing will address the things that Government 
and business can and should do to respond to this cycle of 
violence and dependence.
    In the fight against violence against women, and after the 
passage of the Violence Against Women Act of 2000, addressing 
the economic security of battered women and sexual assault and 
stalking victims, and the negative impact of this violence on 
business, is the next most crucial and critical step in ending 
the violence that plagues too many homes and too many families.
    I know that through the excellent work of the Violence 
Against Women Office, the NOW Legal Defense and Education Fund, 
and the Family Violence Prevention Fund, and through the 
dedication and leadership of companies like Harman 
International, 3M, and U.S. Bank in Minnesota, to name just a 
few, State and corporate responses are getting better and 
better. But obviously, we have far more to do.
    This hearing is a start to a conversation here in the 
Congress that will acknowledge the great work of so many who 
have already done so much, but also and most important, will 
lead to productive changes on the Federal, State, and local 
workplace level so that no woman will ever have to face a 
situation like Ms. Evsich and like so many people do every day, 
where they are forced to trade their families' personal safety 
for their economic livelihood.
    I am pleased to introduce Diane Stuart. Ms. Stuart has 
served as director of the Violence Against Women Office at the 
U.S. Department of Justice since her appointment by President 
Bush in October of 2001.
    My colleagues may remember the strong support Ms. Stuart 
garnered from domestic violence organizations at the time of 
her nomination. This is a tribute to her lifelong commitment--
lifelong commitment--to this most important issue.
    Prior to her appointment to the administration, Ms. Stuart 
was State coordinator for the Utah Domestic Violence Cabinet 
Council, serving in that capacity since 1996. Prior to that, 
she worked as a domestic violence victim advocacy specialist in 
the Division of Child and Family Services for the State of 
Utah. From 1989 to 1984, Ms. Stuart was director of the 
Battered Women's Shelter and Rape Crisis Center in Logan, UT.
    So for the record, colleagues, we can see that Ms. Stuart 
is well-qualified on many, many levels to address this issue.
    Before you begin, Ms. Stuart, I want to thank you for your 
enthusiasm in testifying. It shows me that your office and the 
administration take the issue very seriously, and as I said to 
you earlier, I am joined by Jill Morningstar, who does so much 
of our staff work, and my wife Sheila sends her apologies to 
you and others. This is her work and what she so believes in, 
and she went back to Minnesota to represent me today at a 
number of gatherings, but she sends her best to you.
    Ms. Stuart, thank you.

  STATEMENT OF DIANE STUART, DIRECTOR, VIOLENCE AGAINST WOMEN 
OFFICE, OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF JUSTICE, 
                         WASHINGTON, DC

    Ms. Stuart. Thank you, Senator.
    It is certainly my pleasure to be here and to be able to 
speak on, as you say, this very, very critical issue.
    Violence against women articulated in the workplace may 
differ from other types of workplace violence due to the 
victim's intimate relationship with the offender. The reality 
is that victims of domestic violence and stalking often find 
little safety from their abusers even in the workplace.
    However, if employers take the responsibility to put 
appropriate protections in place, the workplace can be a safe 
place for women who experience these horrifying crimes.
    The Violence Against Women Office administers financial and 
technical assistance to communities around the country that are 
creating programs, policies and practices aimed at ending 
domestic violence, sexual assault, and stalking wherever it may 
occur. Our mission is to provide Federal leadership in 
developing the Nation's capacity to reduce violence against 
women, to administer justice, and to strengthen services for 
victims of domestic violence, sexual assault and stalking.
    The Bureau of Justice Statistics within the Office of 
Justice Programs reports that an average of 1.7 million violent 
incidents occur in the workplace each year. That is 
staggering--1.7 million violent incidents. For women, homicide 
is the leading cause of death on the job, and 20 percent of 
those murders were perpetrated by a woman's partner.
    Let me just take a moment to give you a real life example. 
In Grand Junction, CO, Sarah Miller Anderson--and I say that 
with a little bit of reverence--Sarah Miller Anderson was in 
the process of leaving her husband Chad. After a violent 
argument where Chad tried to suffocate her, Sarah filed a 
temporary restraining order, a temporary protective order. A 
few weeks later, Chad showed up briefly at her workplace where 
she worked as a checker. And I think it is interesting to note 
that he probably--probably--violated that protective order in 
doing so. They spoke for a moment, and he left.
    Sarah did not call the police, but she called her father 
and asked him to come to the store. Before he could get there, 
Chad returned to the store and gunned down his wife, two 
bystanders, and himself.
    That just illustrates what you were speaking of just a 
moment ago.
    As I mentioned earlier, domestic violence has unique 
characteristics that differentiate it from other forms of 
violence in the workplace. Domestic violence is a pattern of 
assaults and controlling behavior perpetrated by an intimate 
partner which can be physical, psychological, and/or financial. 
It spills into the workplace because it is an easy place for 
the abuser to find the victim. In many cases, the abuser is 
threatened by the fact that the victim is working outside of 
the home and may feel intense jealousy and rage that her 
attentions are directed elsewhere.
    For many victims of domestic violence, the workplace may be 
the only place where they are not under the watchful eye of the 
abuser. It may be the one place where the victim is free to 
seek assistance without fear of retribution.
    To their credit, as you mentioned, many employers have 
trained supervisors, employees, and support personnel on the 
dynamics of domestic violence and the appropriate responses to 
violent situations as they enter the workplace. When effective 
training occurs, coworkers and supervisors are prepared to 
assist the employee to deal with her abusive and often violent 
situation as it impacts her work environment. That is far and 
beyond whether the violence actually comes to the workplace. It 
impacts her work environment if she has violence in the home 
and whatever she is doing.
    The Violence Against Women Office is addressing the issue 
of violence against women in the workplace in collaboration 
with other Federal agencies, and I would like to give you five 
examples.
    First, the National Institute of Justice, another agency of 
the Office of Justice Programs, together with the Centers for 
Disease Control and Prevention in the Department of Health and 
Human Services, found through a survey that the most common 
activity engaged in by stalkers included standing outside the 
victim's place of work. The survey also found that stalking 
victims go to extraordinary lengths to keep themselves safe, 
including switching jobs so that stalkers cannot find them.
    Second, again with the Office of Justice Programs, is the 
Office of Victims of Crime, which has worked with the Family 
Violence Prevention Fund that you mentioned a few moments ago, 
to establish the National Workplace Resource Center on Domestic 
Violence. It is this project that serves as a clearinghouse of 
information on national and local responses to domestic 
violence as a workplace issue.
    Third, the Office of Victims of Crime has also produced an 
award-winning video entitled, ``Domestic Violence: The 
Workplace Response.'' This is a marvelous video that outlines 
steps that workplaces can take to help employees who are in 
abusive relationships, and I highly, highly recommend it.
    Fourth, you may be aware that the Department of Health and 
Human Services' Administration for Children and Families 
provides funding through the Family Violence Prevention and 
Services Act to support the Domestic Violence Resource Network, 
which has a series of components. One component is the Health 
Resource Center. This Center reports that 94 percent of 
corporate security directors rank domestic violence as a high-
security problem at their company. Seventy-one percent of human 
resource and security personnel surveyed had an incident of 
domestic violence occurring on the company property.
    Fifth and finally, the Department of Justice and the 
Department of Health and Human Services, as you are aware, in 
one of the most effective collaborations I have ever worked 
with, guided the National Advisory Council on Violence Against 
Women to develop the web-based Toolkit to End Violence Against 
Women. The chapter on workplace violence in this Toolkit 
discusses promoting safety in the workplace and presents a 
number of recommendations that businesses and communities can 
consider. Those recommendations include the development of 
policies, which is critical, prevention strategies, referrals 
to service providers, and public awareness of the issue.
    In response to concerns about workplace violence, the 
United States Office of Personnel Management developed 
``Responding to Domestic Violence,'' where Federal employees 
can find help, as well as a shorter pamphlet that has been made 
available to all Federal employees in the Nation. And I have to 
tell you that that pamphlet sat on my desk in Utah for a 
lengthy period of time and was the prototype I used to create a 
similar pamphlet in Utah.
    The response document, the guidance document, is considered 
one of the best of its kind in the Nation, guiding supervisors 
through an array of management tools that can be used to assist 
Federal employees in abusive relationships. And I suspect that 
that also has been used as a model for other policies and other 
businesses and State governments.
    The Violence Against Women Office is working to further 
efforts such as this. In 2001, in order to enable even small 
businesses to assist employees threatened by violence, we 
provided funding support to the Family Violence Prevention Fund 
to develop State leadership teams of businesses, victim 
services, and law enforcement to create models of 
multidisciplinary response to domestic violence in the 
workplace.
    And as you know, the Violence Against Women Act of 2000 
requires the Department of Justice to develop a report to 
Congress on violence against women in the workplace. Our office 
is in the process of writing this report and has engaged the 
Family Violence Prevention Fund to help us fulfill this 
mandate. The report will describe the results of a national 
survey developed to assist employees and employers in 
appropriate responses relating to victims of domestic violence, 
stalking, and sexual assault. The report will also analyze the 
effects of these crimes on small, medium, and large businesses 
as well as provide a bibliography of current resources 
available--so very, very critical. We hope that this report 
will make a significant contribution to the understanding of 
the issue of violence against women in the workplace.
    Through these and other initiatives, the Department of 
Justice is working with its colleagues in the private and 
public sectors to better understand and address the problem of 
violence against women specifically in the workplace.
    From our work on this issue, we have learned that it is 
only through a coordinated community response that we can be 
successful in our efforts to end violence against women. 
Working in partnerships with employers, we can help educate 
about the dangers of domestic violence, sexual assault and 
stalking, and assist with establishing effective policies and 
programs.
    Violence against women in the workplace is a criminal 
justice issue, a health issue, and an economic issue. If we are 
to make any headway in eliminating its threat, the public and 
private sectors must all work in collaboration. Women's lives 
depend on it. Thank you.
    [The prepared statement of Ms. Stuart may be found in 
additional material.]
    Senator Wellstone. Thank you, Ms. Stuart.
    Before we go to questions--and I have one for you about 
family and medical leave and whether it could apply to women in 
these circumstances, and the author of that bill is here--I 
just wanted to first of all defer to my colleague, Senator Dodd 
from Connecticut.
    Some members, including the chairman of the committee, are 
in a Judiciary Committee hearing right now on homeland defense, 
and that is why they are not here; but it does not surprise me 
that Senator Dodd is here, because I do not know of anybody in 
the Senate who has worked more on children and family issues 
than Senator Dodd.
    Senator Dodd, thank you for being here.

                   Opening Statement of Senator Dodd

    Senator Dodd. Thank you, Mr. Chairman.
    I am grateful to our witnesses for being here, and I do not 
want to delay your proceedings, but I do want to thank you for 
leading on this. This is a tremendously important issue, and 
you have a very good group of panelists coming up on Panel 2 as 
well.
    This is a tremendously important issue, and I thank you for 
raising it and bringing it up. It is a sad truth that this kind 
of violence affects the lives of far too many women in our 
society. The numbers bear that out. According to some studies, 
the incidence of domestic violence approaches one in every four 
women over the course of their lifetime. These are stunning 
numbers. I do not think that that is said often enough. It is 
an enormously troubling statistic that we must find some 
resources to combat, I think.
    Of course, you, Mr. Chairman, have said for years during 
your entire service here--I do not know of a time when you have 
not been involved in this issue--you have considered it one of 
the most important. So I thank you for your leadership on this, 
going back to your first days here--and I know even before you 
arrived here, but during your tenure in the Senate, this has 
been tremendously important to you.
    For this reason, by the way, I am proud to be a cosponsor 
of the legislation on the Violence Against Women Act, which 
many of my colleagues have joined, and I continue to support 
the provisions of that bill to build on the success of the 
original bill that we introduced.
    It is also important to recognize that when a woman is 
abused, the abuse does not stay at home. We therefore cannot 
fight this battle on only one front. Domestic violence is often 
seen as a personal issue, a private issue, and certainly the 
right of privacy of any victim should always be respected. 
However, the suffering endured at home often follows a woman 
into her place of employment, tainting and violating the 
environment that should be a safe haven from the violence at 
home, so compromising the workplace security of her coworkers 
and interfering with her ability to hold a job and perform her 
duties with confidence and peace of mind.
    So when domestic violence crops up in the workplace, it 
becomes a concern for all of us. The issue of whether we can 
incorporate some of this in the Family and Medical Leave Act--I 
appreciate your referencing that specifically--is an idea worth 
exploring as to how we might accommodate it.
    I would ask unanimous consent that some additional remarks 
be included in the record, Mr. Chairman. I look forward to the 
panelists and look forward to some questions.
    Senator Wellstone. Thank you, Senator Dodd.
    [The prepared statement of Senator Dodd follows:]

                   Prepared Statement of Senator Dodd

    Good Morning. I would like to thank our Chairman today, 
Senator Wellstone, for convening this hearing on the powerful 
topic of domestic violence against women, and its effects in 
the workplace. It is my pleasure to be here today, and I would 
like to welcome all of our witnesses to the Committee and thank 
them as well for coming here today to give us their testimony 
on an issue that is both compelling and of vital importance.
    Mr. Chairman, it is a sad truth that violence affects the 
lives of too many women in our society. According to some 
studies, the incidence of domestic violence approaches one in 
every four women over the course of their lifetime; an 
enormously troubling statistic that we must find the resources 
to combat. As you know, Mr. Chairman, the victims of domestic 
violence and other forms of violence against women face a 
unique form of terror at the hands of their attackers, and we 
need to move aggressively to ensure that these women do not 
continue to live in fear. For this reason I was proud to be a 
cosponsor with many of my colleagues of the Violence Against 
Women Act (VAWA), and I continue to support provisions that 
build on the success of the original bill.
    It is also important that we recognize that when a woman is 
abused, the abuse does not stay in the home, and we therefore 
cannot fight this battle on only one front. Domestic violence 
is often seen as a personal issue, a private issue, and 
certainly the right to privacy of any victim should always be 
respected. However, the suffering endured at home often follows 
a woman to her place of employment, tainting and violating an 
environment that should be a safe haven from the violence at 
home, compromising the workplace security of her coworkers, and 
interfering with her ability to hold a job and perform her 
duties with confidence and peace of mind. When domestic 
violence creeps into the workplace, Mr. Chairman, it becomes a 
concern for all of us. Indeed, according to the American 
Institute on Domestic Violence. 94 percent of company security 
directors surveyed ranked domestic violence as a ``high 
workplace security risk.''
    In addition, not only is the security of the workplace 
jeopardized, but the economic impact for employers in terms of 
productivity slow-downs, absenteeism, and enormous health care 
costs is unacceptable. Companies are losing an estimated $3 to 
$5 billion each year to domestic violence, and many have begun 
to institute specific domestic and workplace violence 
initiatives to help deal with this growing problem.
    I therefore hope that today's hearing will not only shed 
much needed light on the deeply troubling problem of workplace 
violence, and the effect this abuse has on women's health and 
well-being, but will also suggest some possibilities for 
actions that we may take to help address and confront these 
problems.
    With that, I yield, and I look forward to today's 
testimony.
    Senator Wellstone. Let me start, Ms. Stuart--before you 
arrived, Senator Dodd, I was thanking Ms. Stuart for her work. 
When we talked with her about this hearing, she had absolutely 
no hesitation about being here. She has just an unbelievable 
background, with tremendous support around the country. So you 
are the right person, Ms. Stuart, and we really appreciate you 
being here, and I know that Bonnie Campbell is pleased to see 
you in this position as well; she was such a strong advocate.
    You talked about the Toolkit and described that, and then, 
the OVC video and other programs such as the State leadership 
teams. Do they include recommendations to allow women--I guess 
this goes right to Chris' point--to take leave from work to 
address domestic violence needs such as, for example, the need 
to appear in court or to find shelter or counseling or to go to 
a lawyer or to get medical care without penalty?
    Ms. Stuart. That is an excellent point. That is the kind of 
thing that they want those groups, those teams, to consider. It 
is issues such as that--to see how it fits into the environment 
of that particular company--is that something that that company 
can consider; how would it work; what are the steps they would 
go through. So that would certainly be one of the conditions 
that would be on the table for that team to consider as they 
look at the entire picture of all the protections that can be 
offered to a victim of domestic violence--you bet.
    Senator Wellstone. I would really urge you--and again, this 
is not a hearing today on legislation, and I am not trying to 
pin you down on yes or no answers--but I do think this is an 
area that is really well worth exploring, because right now, 
Chris, there is not this kind of coverage, but again, it 
certainly fits in. Unfortunately, this is the experience for 
too many women, and now she needs to go to court or needs to go 
and get some help or needs to go to a doctor, needs to go to 
see a lawyer, needs to go to see an advocate, and it seems to 
me that, if so, she should not have to run the risk of losing 
her job, and it would be nice to provide that kind of 
protection. We know that unfortunately this is a huge issue in 
many families, so I hope that you will consider this in your 
work.
    Would you agree--and I guess I am interested in what would 
be your recommendations--that one of the things that we have to 
do is work to ensure that companies do not fire someone just 
because they are victims of violence? Would you agree with 
that, and what would be some of the recommendations that you 
would make about what we need to do?
    Ms. Stuart. That really gets directly to the point of 
awareness, because as companies learn about the issue of 
domestic violence--or before they learn--they make assumptions 
about what a victim can do and cannot do. That is why it is so 
critical that policies be put together--and before policies can 
be put together, they have to learn--again, it goes back to the 
coordinated community response--they have to reach out to the 
experts in the community, those in the State coalitions, for 
example, or those State administrators in the key programs 
throughout the State that are dealing with this so that they 
can go ahead and learn these things.
    An example might be in the State of Utah--and forgive me 
for going back, but that is where my experience is coming 
from--there was a two-pronged program going on. One was 
established by our attorney general and was called ``Safe at 
Home,'' by which teams were put together all over the State and 
went into businesses at noontime and gave an hour presentation. 
It was really just to raise awareness. The first 15 minutes was 
a video, and they showed that video which showed the dynamics 
of violence between intimate partners. Then, there was a law 
enforcement officer or a lawyer who talked about the legal 
issues, and there was a shelter provider who talked about the 
resources. There were different individuals from that community 
surrounding that business who would be resources for that 
business to come in and talk about their part in the whole 
program, and then a period of questions and answers. It was all 
done in an hour, all as a brown bag lunch, and it was a great 
way to raise awareness so that employers could begin to 
understand that there are unique differences for these folks. 
And then, how they could respond to them would be the second 
phase and putting together policies.
    Senator Wellstone. I appreciate that, because the question 
that I am really asking--and Dr. Harman represents a very 
progressive company, and I can think of others in Minnesota and 
around the country--but what I am interested in is what about 
the hundreds of thousands of women who work for companies that 
right now do not want to help. In other words, the really 
horrible situation that I have been made aware of more than 
once is that it is not her fault, and this guy wants the power 
over her--he does not want her to be working, and he does not 
want her to be independent--and he comes to the workplace and 
is very threatening and so on, and the employer says to her, 
``We cannot have this; this is bad for the employees' morale,'' 
and he fires her.
    Are you saying that you think the answer to this is just 
the education, or are there other things that we need? Given 
your position, what are some of the things you think we can do 
to provide these women with more support and more protection? 
Are you just emphasizing the education approach, or do you see 
other things?
    Ms. Stuart. You have to emphasize education, because that 
is a critical component. But it is the networking back and 
forth, and the education comes at all kinds different levels. 
My mind goes to the community organizational groups who speak 
out as a group that this is an inappropriate thing to do, that 
to fire someone because they are a victim of domestic violence 
would be an inappropriate action. So the different 
organizations within the communities take a stand. That goes 
back to the networking with the coalitions and that kind of 
thing, as new and creative ways of dealing with that for that 
particular community.
    What I think, Senator, is that what may work in one 
community may differ from what may work in another. Certainly a 
large organization like a large corporation can put together 
rules and conditions because they are educated, so the policy 
would say that an individual be released because of someone 
else's crime upon them. Those are the kinds of policies that 
companies need to create.
    But smaller businesses need guidance from the larger 
businesses and need the support of the larger community to pull 
it off, to make it work.
    Senator Wellstone. We have been joined by Senator Murray, 
who has been unbelievable in her commitment to these issues. 
Since I am chairing the committee, and I will be here the whole 
time, and Senator Dodd and Senator Murray might not be able to 
stay for the whole time, I will end my questions with one final 
question and then, if it is okay, Senator Dodd, will turn to 
Senator Murray, and then you can make a statement as well as 
ask some quick questions of Ms. Stuart.
    Rather than put it in the form of a question, I will just 
make two points for your consideration. One--and again, this is 
not about the legislation--but the Victims Economic Security 
and Safety Act, I would just on the record ask you to take a 
close look at that, and where we agree, we agree, where we do 
not agree, we do not agree, but we would like to work with the 
administration on that, and I make that appeal to you.
    The second appeal I would like to make--which could lead to 
an hour's exchange of views, which we will not do--is just for 
you to really--and I do not mean this in a gratuitous way, and 
you have probably already done it--but to really look very 
carefully at the link between domestic violence and poverty 
and, moreover, the link between domestic violence and welfare 
as it affects this welfare reform bill. I would really urge you 
to do so, because right now, in terms of what I have seen come 
over from the House, I do not think there is anywhere near the 
adequate protection there needs to be.
    One thing you do not want to do is put a woman in a 
position where she has no other choice but to stay in a home 
where she should not be and her kids should not be. So you have 
got to be pretty careful about all of this and take into 
account the very special circumstances of the lives of women 
and children who have been through this.
    I do not see that in that bill, and I would like for you 
to--and you do not have to answer now--but please take this 
into account and be a voice in helping to shape the 
administration's viewpoint. That would be much appreciated.
    Ms. Stuart. We certainly will review it.
    Senator Wellstone. And we will hear from Dr. Harman, but I 
want to note, just in case the Congresswoman has to leave, that 
we have been joined by Congresswoman Jane Harman. I was saying 
earlier, Congresswoman, that a number of our colleagues 
including the chair of this committee are now in the Judiciary 
Committee on the homeland defense bill. But we thank you for 
being here. We have all seen you on television and in the 
discussions, and you have done a great job, and we thank you.
    Ms. Harman. Thank you, Senator.
    Senator Wellstone. Senator Dodd?
    Senator Dodd. I will defer to Senator Murray. I know she is 
chairing the Appropriations Committee.
    Senator Wellstone. Fine.
    Senator Murray?
    Senator Murray. Senator Dodd wants to make sure I do not 
lose track of his State.
    Senator Dodd. I want to make sure our projects are included 
in the appropriations bill.
    Senator Wellstone. I say get back to Appropriations. 
[Laughter.]
    Senator Murray. Thank you very much, Mr. Chairman, and 
thank you, Senator Dodd. It is a busy day on my Transportation 
Appropriations Subcommittee, but I did want to come to this 
hearing, first of all to thank Senator Wellstone for his 
tremendous advocacy on behalf of battered women and his work on 
VAWA and his work on the Victims Economic Security and Safety 
Act. He and his wife Sheila are really leaders in the country 
in making sure the rest of us do not forget people who are 
often forgotten and behind closed doors. And I thank Senator 
Dodd as well for his compassion and his work on this issue.
    We have a lot of work ahead of us, certainly, and I found 
the statistics in your prepared statement, which I had a chance 
to look at, to be pretty chilling. You noted that almost 10 of 
every 1,000 women in our American work force have experienced 
violence in the workplace, including incidence of murder, rape, 
and aggravated assault, and that workplace homicide is the 
third leading cause of job-related deaths. For women, homicide 
is the leading cause of death on the job. I think that is 
fairly startling and something that we should all recognize, 
and I think it shows why it is so critical that we eliminate 
the economic barriers that are facing many abused women and why 
I believe that women who have to leave their jobs should be 
allowed access to unemployment compensation and should be 
allowed to use the Family and Medical Leave Act to seek help 
and care, and it is why I worked with my colleague, Senator 
Wellstone, in 1996 to implement the family violence option 
during the welfare bill.
    Your testimony provides a number of steps that the 
administration is taking to protect women in the workplace. 
Frankly, I am very concerned about the foundations of these 
programs in the Violence Against Women Act, because they have 
been level-funded by the administration. Despite the new 
authorization that we enacted in 2000, the President has not 
proposed the authorization funding levels for these programs. I 
know we all recognize the needs in homeland security and 
defense, and I do not think any of us will argue with that, but 
I do not think we can forget the women and children in their 
homes today, where ``homeland security'' has a terribly 
different meaning.
    As a member of the Senate Appropriations Committee, I am 
going to continue to work for full funding, and I just wanted 
to give you an opportunity to comment about how or if this 
administration is going to get funding for these important 
programs.
    Ms. Stuart. It is so complex, isn't it, and there is so 
much, as you have stated, to do. I think it is a tremendous 
challenge for this administration and for our office to be able 
to utilize the funding that we do have in the most effective 
way. That is my challenge. As I look at the funding level that 
I have and I look at the job that I am trying to do, we are 
trying to do it in the most effective way.
    Are we looking at what we need to look at? Are we putting 
funding into the correct places to accomplish what we want and 
to accomplish all of those elements that you spoke of, because 
of the complexity of it, and one relates to another, and back 
and forth. It certainly is a challenge.
    I can tell you that we are committed, this administration 
is committed, to working our way through all of the intricacies 
of how it affects women, that we are trying to reach out and be 
creative, step out of the box, if you will. We have done a 
marvelous job since the Violence Against Women Act came into 
effect in 1984, an absolutely marvelous job. I know that from 
being in a community and in a State, working in a shelter and 
seeing the effect that it has on those individuals, those who 
do not have choices and do not have resources. We have done a 
tremendous amount.
    There is much, much more to do, and our emphasis is to go 
back and look at what are we asking States and communities to 
do, what are we asking agencies to do; is it the right thing. 
So we are in a constant review of all of those issues and 
mandates so that we can, as you are indicating be much more 
effective than we are now.
    The end goal, Senator, I think is to build the capacity of 
each individual community so that that community can respond 
appropriately, whatever that means, whether it is through the 
criminal justice system, whether it is through the health care 
system, or whether it is through the workplace and the 
financial systems, to educate banks, to educate any commerce 
level, any business anywhere, on appropriate responses. And 
again, this goes back to the awareness thing, being able to 
make people understand what is going on.
    So often, we think, ``That would not happen to me; I would 
not let that happen to me,'' and because of that element, and 
because of our personal involvement, it makes it really, really 
difficult. But I think that we have made giant steps, and our 
intention is to continue to make giant steps.
    Senator Murray. Well, I would urge you to remind the 
administration that fully funding these programs is absolutely 
critical, especially at a time when many of our communities and 
our States are looking at depleted budgets, and the economy has 
slowed, and we know that that has an impact on violence in both 
the workplace and at home. When people are having a hard time 
economically, it adds to the pressures at home that contribute 
to some of this, and at the same time, those States and 
communities do not have the resources today to really support 
the facilities that they need. We need some leadership at the 
Federal level to fully fund. So I really hope you will push 
that within this administration.
    Thank you so much, Senator Wellstone. Again, I do have a 
committee that I am putting together today, but I really 
appreciate all the witnesses who are here and all the people 
who speak out on behalf of victims of domestic violence both in 
the workplace and at home. We have got to keep talking.
    Thank you very much.
    Ms. Stuart. We do, Senator. Thank you.
    Senator Wellstone. Thank you, Senator Murray, for dropping 
by. We know we have your appropriations work, and we thank you.
    [The prepared statement of Senator Murray follows:]

                  Prepared Statement of Senator Murray

    Mr. Chairman: I want to thank you for your efforts and 
leadership in putting this hearing together. It has always been 
a pleasure working with you to address the devastating impact 
of domestic violence.
    I believe our legislation--the Victims Economic Security 
and Safety Act--is an important piece of legislation that 
addresses the serious economic barriers that often trap women 
and children in violence homes and relationships.
    VESSA takes the next step in addressing the impact of 
violence against women.
    The landmark 1994 Violence Against Women Act--and the 
reauthorization legislation enacted in 2000--provide the 
foundation for a national strategy to end the violence.
    VAWA provides significant resources and assistance to state 
and local communities in providing an immediate response--
including funding for law enforcement and shelter assistance.
    Without any doubt, VAWA has been successful.
    Our greatest challenge will be working to ensure full 
funding for the important programs and assistance provided in 
VAWA.
    Now that we've dealt with the immediate safety and public 
health threats, we must now look for the long term solutions 
that will address the economic barriers that force women to 
stay in violence situations or end up on welfare.
    Today's hearing is part of our effort to begin the process 
of addressing economic issues.
    We must provide greater job protections for those women who 
are victimized in the work place or who must flee their jobs in 
order to escape an abuser.
    We must ensure that women can seek protection orders or 
medical assistance without fear of losing their jobs.
    We must also help employers, large and small, understand 
the need to provide a safe work place for all employees.
    I find it unacceptable that a woman who must leave her job 
to relocate with her husband can receive unemployment benefits, 
but a woman forced to flee her job because of any abusive 
spouse is denied these benefits.
    Fortunately, 18 states--including my own state of 
Washington--have enacted laws providing the same access for 
abused women.
    In reviewing the written testimony of today's witnesses, 
it's clear that violence against women in the work place is a 
real threat, and it has cost too many women their lives.
    I want to thank the witnesses for their testimony and for 
their efforts on behalf of battered women.
    Your testimony will be useful to us as we continue to work 
at enacting greater economic safety and protection for battered 
and abused women.
    Senator Dodd?
    Senator Dodd. Mr. Chairman, you have covered a lot of it, 
but let me just ask you if I can, Ms. Stuart--and I first of 
all admire what you are doing, and I appreciate what has been 
done in Utah.
    My in-laws are all from Utah. Out there, of course, it is 
such a strong Democratic State. [Laughter.] Often when I go out 
there, they call me ``the third Senator from Utah,'' and I tell 
them, ``Those 10 Democrats out there deserve representation.'' 
[Laughter.] My in-laws tolerate me.
    I appreciate what has been done out there, though. There is 
a real effort.
    Ms. Stuart. On many fronts.
    Senator Dodd. Yes, there really has been, and I admire 
that. A lot of this can and needs to be done at a local level. 
We think we need some real emphasis at the national level as 
well, and we believe we can add some real emphasis to this 
effort. And the numbers speak so loudly. It needs a lot of 
cooperation, or it is not going to be done.
    I think it is admirable what the State of Utah is doing and 
what other States are trying, but we have seen what can happen 
in other areas. For example, hate crimes--if we had left the 
hate crimes issue exclusively to local jurisdictions, I do not 
think we would be anywhere near where we are today in raising 
the profile of these issues. And unfortunately, domestic 
violence issues, because there is this patina of privacy--that 
this is our business, and what goes on in our house is none of 
your business--had we tolerated those views regarding children, 
had we tolerated those views regarding hate crimes and so 
forth, think of where we would be today. And we have sort of 
skipped over the issue of violence against women.
    So we have got to get beyond that if we can. This is no 
longer acceptable by anybody. It should not be acceptable by 
anyone.
    So what we are trying to figure out is how best we can 
provide assistance to victims on the Federal level. We can 
start here and set some real examples at the Federal level. 
Workplace violence is unique compared to other forms of 
violence. We need to get some better ideas on how employers can 
tailor their security systems. I will be very interested in 
talking to my good friend, Sid Harman--and I want to welcome 
Jane here as well; it is a delight to have you over here with 
us on the Senate side--to get some ideas on helping at the 
Federal level and how we can help employers who want help, or 
how can we set some standards here that will at least require 
some minimum standards to be met by employers that will at 
least heighten the possibility of security for people, because 
unfortunately, we are not encountering people who see this as a 
priority, and they do not like the idea.
    I know that when we did the Family and Medical Leave Act, 
it has been proven to be valuable, and many employers today 
think it poses little or no problems for them; yet to hear the 
testimony that we went through here for 7 years, before it was 
signed into law, you would have thought we were loading them up 
with an incredible amount of burden, when in fact many will 
argue today that it has actually increased productivity, 
reduced problems of absenteeism and the like, and it has 
created a far better relationship between employers and 
employees because of the sensitivities of knowing that when a 
child is sick, or a parent or a spouse, where that employee 
must be, we are not forcing them to make those decisions or, as 
many witnesses talked about, even lie, saying ``I had a flat 
tire'' or ``The plumber did not show up on time.'' That was 
more understandable than saying their child was sick, because 
it was unacceptable to admit the you might have a child who was 
sick in terms of why you could not be at work.
    That is sort of what is happening here with this issue, and 
we have got to get beyond that, and that takes national 
leadership to get through it.
    So I am anxious to hear what you think can be done--what 
can you do, what can the Attorney General do, what should the 
President be doing, what should he be saying about this issue.
    Ms. Stuart. I think there are several levels. I think that 
whatever we are doing, whatever it is, and speaking out, the 
leadership that you have and the things that you have done are 
just fantastic.
    The second level is getting people to hear about it, 
getting people to know, and even when we create laws, getting 
entities to understand what the law is and what the response 
should be--this Toolkit with the recommendations that we have 
in regard to how to deal with these issues--the information is 
there, but how many know about it?
    So part of the leadership that I think you are talking 
about is doing these things, whether they be laws, whether they 
be policies as we have done, or whether it be a Toolkit with 
the recommendations. Those are all wonderful, but the next step 
is how do you get that information to those who are doing the 
work in the field; how do you get that information to families; 
how do you get that information to those who have the greatest 
need so that they in fact do have the choices that they should 
have, informed choices. That is our concurrent challenge--it is 
not only to create these wonderful things that we do, but it is 
also to get the information down, because so often it trickles 
down, and those who could use the information, those who could 
implement the laws, those who would be in a position of power 
to do that, many do not even know about it. So it is doing what 
you are doing, which is so commendable, speaking out and 
saying--and that is part of my job, too, is to speak out and 
let people know what is available and where to get it, in as 
many different ways that we can. There are those who are 
technologically savvy. There are those who only get their 
utility bill, and maybe they will read what goes in the utility 
bill. There are those who come from marginal communities, from 
Asian communities, from Hispanic communities, black 
communities, whatever the community may be, and their source of 
information to know what is available may not be adequate; they 
may not know that. So that is another challenge that we have is 
to help those different communities reach out to what is really 
going on over here.
    So I see it as a multilevel thing that all of us--I really 
firmly believe, Senator, in this coordinated community response 
method, because when I said that we cannot do it alone, none of 
us can do it alone. Those of us in Federal Government, those in 
State government, those in the private sector--we all need to 
do our part so it will work.
    Senator Dodd. Yes, I appreciate that. But obviously, it is 
so helpful--in addition to the enactment of legislation, which 
is critical in providing the resources, but also the bully 
pulpit. It is one thing for us here--and I appreciate that--but 
if the Attorney General or the President started talking about 
this, it would make a difference, and candidly, we have not 
heard much, and that is unfortunate.
    So I am asking you to go back, if you will, and urge the 
Attorney General to speak out on this and to have him urge the 
President to find a venue and a forum where, with CEOs and 
other people, they could talk about this. In addition to us 
passing laws, which we are going to try to do, and providing 
resources, national leadership that would devote as much 
attention to this as they have to some other issues could make 
a huge difference.
    So we would ask you to carry that back, if you would.
    Ms. Stuart. Thank you.
    Senator Wellstone. Ms. Stuart, we really appreciate your 
being here today, and we appreciate what you are trying to do. 
I would just join Senator Dodd in urging you to get others in 
the administration to show the same commitment.
    Thank you very much.
    Ms. Stuart. Thank you, Senator, and may I echo your 
colleagues in thanking you for all of your work on this issue. 
It is critical, and I appreciate it.
    Thank you.
    Senator Wellstone. That is very gracious of you. Thank you.
    We have a superb panel as our second panel.
    Please come up, and I will introduce each of you. And 
seeing Dr. Harman here, let me also ask unanimous consent--of 
myself, I guess--to include in the record testimony from Liz 
Claiborne, a company that has a superb record and wants to go 
on record with its strong support for the direction that we are 
going in here.
    [The prepared statement of Liz Claiborne may be found in 
additional material.]
    Senator Wellstone. Kathy Evsich is a mother of two from 
North Carolina. She is the vice president of Women Against 
Domestic Violence, an organization that increases awareness of 
domestic violence. I had the honor to hear her speak last year, 
and I have not forgotten the power of her story and the 
incredible strengthen that she has shown in facing the personal 
situation that she has had to deal with.
    Nobody makes a more compelling argument to address this 
issue than Kathy. I know that her testimony will provide an 
excellent context for me and my colleagues to better understand 
the crucial trap that too many women face when they and their 
children are in danger, trying to desperately maintain some 
independence from their batterer.
    Kathy's heroic survival of domestic violence is 
inspirational, and I thank her for joining us today.
    Dr. Sidney Harman, welcome. I want to thank you for being 
here today and thank you for your superb leadership which 
everybody agrees on.
    Dr. Sidney Harman is executive director of Harman 
International, a company which he founded in 1952, originally 
with another name. Harman International is a Fortune 500 
company that is a leader in the electronics industry. In 
addition to his extraordinary success in business, Dr. Harman 
has an outstanding record in public service and philanthropy. 
He served as deputy Secretary of Commerce from 1977 to 1978. He 
founded and is an active member of the Program on Technology, 
Public Policy, and Human Development at The Kennedy School of 
Government, and he is chairman of the program committee on the 
board of the Aspen Institute for Humanistic Studies.
    Dr. Harman also comes to us as a prolific writer on issues 
related to productivity and quality of working life.
    Dr. Harman, we do not have time to list all of your 
accomplishments and honors, but will just say thank you for 
being here.
    Kathy Rodgers is president of the NOW Legal Defense and 
Education Fund. Her leadership--and Sheila and I have done so 
much work with you all--in bringing the issue of violence 
against women in the workplace and domestic violence in general 
to the forefront has been extraordinary. NOW Legal Defense 
chairs the National Task Force to End Sexual and Domestic 
Violence Against Women, which includes over 2,000 national, 
State, and local organizations. NOW Legal Defense has also 
provided much-needed advice and support to all Members of 
Congress, Democrat and Republican alike, dealing with the 
Violence Against Women Act in 1994 and reauthorization in the 
year 2000.
    The organization, and Geoff Boehm in particular, have 
worked tirelessly with us in enabling us to draft the Victims 
Economic Security and Safety bill, which is a bill that I have 
introduced with Senator Murray that will address a lot of the 
issues that we are talking about today.
    We thank you for being here as well.
    Kathy Evsich, we will start with you.

   STATEMENTS OF KATHY EVSICH, VICE PRESIDENT, WOMEN AGAINST 
 DOMESTIC VIOLENCE; SIDNEY HARMAN, EXECUTIVE CHAIRMAN, HARMAN 
 INTERNATIONAL INDUSTRIES, INC.; AND KATHY RODGERS, PRESIDENT, 
      NOW LEGAL DEFENSE AND EDUCATION FUND, WASHINGTON, DC

    Ms. Evsich. Senator, thank you for inviting me here today.
    I, like many millions of women in this country, have been a 
victim of domestic violence. I also, like millions of other 
women in this country, desperately needed the economic security 
of a steady job if I had any hope of getting my children and me 
out of a violent relationship.
    I had been employed as a hostess/waitress at a family-owned 
restaurant. I loved this job for a very simple but important 
reason--it allowed me to start stashing away the money I knew I 
would need to get away from my abuser.
    It was not long before my abuser found my stash of money. 
He knew that this money was my escape plan and so demanded that 
I quit my job. I begged him to let me work, knowing this was 
the key to getting away from him and protecting my children.
    It was shortly after he found my get-away money that the 
harassing phone calls started at my job at the restaurant. My 
abuser would call many times during the course of a shift and 
demand that I ``Come home right now.'' When I told him that I 
could not come home right then, he would use tactics that would 
get me crying on the job, trying to make me look bad. Somehow I 
would pull myself together to finish my shift.
    He would even leave my children at home alone, park outside 
the restaurant, and watch me through the windows. He would call 
me at work and ask my why I hadn't come home yet. Then he 
started coming into the restaurant and demanding that I leave 
work right then and come home with him--even though he knew I 
could not just leave my job like that.
    My life was in danger at this point, and I knew it. Now I 
needed this job more than ever, and my abuser knew that too. On 
July 3, 1999, my abuser called and demanded to speak to the 
owner of the restaurant. My abuser threatened the owner. I 
understood my boss was concerned about his safety, but I still 
wonder why he did not call the police and get a restraining 
order against my abuser. I was not the threat; it was my abuser 
who was the threat. But I was the one who paid the price.
    When I was fired, that left me solely financially dependent 
on my abuser. Everything we owned was in his name. He even said 
that he would call the police and report the car stolen if I 
left with it.
    My whole world was crushed at this point. How was I going 
to be able to get away from him now? I had no money, and I had 
no job. Since I had been employed full-time at the restaurant 
and had worked for several years prior to that, I went down and 
applied for benefits at the unemployment office. I thought at 
least this would be a little something coming in to get me back 
on my feet. I was refused unemployment not once, but twice.
    After I got fired, my abuser refused to let me go back to 
work for several months. I was not allowed to talk to anyone 
unless he was present, and I could not go anywhere unless he 
knew exactly where I was going and when I was coming back. He 
would also call me all the time on my cell phone just to check 
up on me.
    I needed another job. I had to get out of my prison. In 
September 1999, I diligently started looking for another job 
and finally found one at the credit union. The hired me knowing 
my story and why I needed this job so badly. I was completely 
honest about my situation.
    The first day on the job, my abuser began driving by the 
credit union and blowing the horn of his car. On the second 
day, he started driving through the parking lot, parking 
outside the window where he could watch me, just like he had 
done when I worked at the restaurant. He was scaring not just 
me, but my coworkers, too.
    I was not due in the office again until 9 a.m. the next 
morning. My abuser knew that and so started calling the credit 
union at 8:30 a.m., asking my boss where I was and why I was 
not at work. When I arrived at work, I was called into the 
office and told that I no longer had a job with them because of 
my abuser's behavior. They said that I was a good worker and 
fast learner, but they could not tolerate what he was doing. It 
was only my third and last day on the job.
    The police said there was nothing they could do about it 
without a restraining order, but I could not get a restraining 
order because my abuser and I were still living together, and 
without my job, I could not afford to move out.
    Without a job, I was stuck. Without a job or other means to 
support my children, I did not know how I was ever going to get 
away from this monster. If there had been workplace protections 
for victims of domestic violence, I might have been able to 
keep my job, a job that I needed desperately if I was ever 
going to escape. Also, my employer would have known better how 
to assist me rather than punishing me for something that was 
out of my control. At the very least, unemployment insurance 
would have given me the chance to get out and get help.
    There is more to my story. My husband left the house, and I 
used that opportunity to file for a restraining order. I got a 
job as a gift shop cashier. Two weeks later, he came back, 
smashing the window in our house. I was scared to death.
    My court date for the restraining order was still a few 
days away, but when it was granted, the judge told me that I 
was the one who had to leave the house. But at least this time, 
I had a job and could find a place for my kids and me.
    About a month later, on November 10, 1999, my abuser 
attacked me. He tried to murder me, and I was seriously 
wounded. I was lucky that my abuser was eventually put in 
prison. Unfortunately, many women still live in their abusive 
relationships.
    A steady job is critical for women like me. It is the only 
sure way we can get the economic security that we need to get 
ourselves out of an abusive situation.
    Once again, I want to thank you for inviting me to come and 
share my story with you.
    Senator Wellstone. And what a story. We rarely hear more 
powerful testimony--rarely. Thank you so much. Thank you for 
being here.
    Dr. Harman?
    Mr. Harman. Senator, if I had no better reason to be here 
today listening to Ms. Evsich, it would have been reason quite 
enough. And for that matter, since we are each of us talking 
about courage of one sort or another, I can simply not restrain 
my wish to speak of yours and to tell you how inspiring your 
personal approach to life is. So I am honored to be with you, 
Senator.
    Senator Wellstone. Thank you.
    Mr. Harman. I am Sidney Harman. I am executive chairman of 
Harman International, a worldwide company with over 10,000 
employees and annual revenues of nearly $2 billion.
    If one thinks domestic violence only affects home life and 
is not an issue in the workplace, that person is very wrong. 
Domestic violence does not stay at home when an abused employee 
goes to work.
    My company, like many others, has been adversely affected 
by domestic violence, and we have chosen to do something about 
it.
    On May 29, 2001, Teresa Duran, a woman 56 years of age and 
a beloved 24-year employee at Harman, was viciously murdered by 
her ex-husband as she returned home from work. That incident 
moved me to create a company domestic violence program that 
informs all of our employees about the dynamics, the realities, 
and the consequences of domestic violence.
    With the assistance of the Family Violence Prevention Fund, 
we developed a program which heightens awareness of domestic 
violence and its effects in the workplace, provides guidance 
for employees and, equally important, for managers, and creates 
a safe workplace environment.
    A key part of our program has been mandatory training of 
managers and employees in all of our domestic divisions. 
Training is comprised of an education component, which provides 
information about violence, posters, safety cards, brochures, 
so that employees have the information available when they most 
need it; support, which often takes the form of an 
understanding performance appraisal which factors in their 
domestic circumstances; an atmosphere which encourages 
employees to seek assistance if needed; and trained staff who 
do not offer advice but make active referrals to appropriate 
local community resources, those appropriate community 
resources, possessed of domestic violence expertise.
    Because women are the targets of abuse in an astonishing 85 
percent of all reported intimate partner violence, I focus my 
comments today on women, although we should understand that men 
can be victims of abuse, and women can also be abusive.
    Domestic violence is flat out unacceptable, and there is no 
excuse for violence whether it takes place in the home or in 
the office. It is up to all of us--legislators, educators, 
community and business leaders--it is up to everyone to take 
the necessary steps to protect women from abuse. Domestic 
violence has a dramatic impact on the children who witness it, 
in some cases continuing the cycle of violence into the next 
generation. Our children are our future; what affects them 
affects us all.
    As the executive chairman of a successful, ethical, 
multibillion-dollar company, I am not responsible only for the 
numbers; I am also responsible for all the people I work with. 
If one of our employees is abused at home, that is my business, 
and my company has a responsibility to do what it can to give 
her the support she needs to be safe.
    At Harman, we are committed to treating employees who are 
victims of domestic violence fairly, and we will not make 
negative employment decisions, including recruiting, hiring, 
promotion, discipline or termination of employees, based on 
knowledge or perception that an employee is a victim of 
domestic violence.
    We are also responsible for making sure that our workplace 
is safe for everyone. At Harman, we will not tolerate acts or 
threats of domestic violence or violence against any employee 
while on Harman property or while conducting our business. Any 
employee who threatens, harasses, or abuses someone at the 
workplace or from the workplace while conducting Harman 
business is subject to corrective or disciplinary action, 
including termination of employment.
    We have looked at the strengths and weaknesses of our 
internal security systems and developed site-specific plans to 
address risky situations while taking steps to protect the 
victim's confidentiality and freedom of personal decision and 
action. We recognize the need to be flexible and, where 
possible, will consider relocation and, in appropriate 
situations, approve and even encourage time off to get an order 
of protection or to file a police report.
    The company will not take action against an employee for 
taking that approved time. We also have internal emergency 
funds and other financial support available.
    Earlier, I mentioned Terry Duran, who left two children 
behind and made us take a hard look at whether we were doing 
enough, whether we were protecting our employees as well as we 
should. Since we began our domestic violence program, numerous 
employees in all divisions of our company around the country 
have come forward and spoken about their domestic violence 
situations at home. They have told us that were it not for the 
training, they would not have been comfortable talking about 
their situations or asking for help. And help, they have 
received. In one instance, a potentially life-threatening 
situation was defused, and in several others, referrals were 
made to local agencies for ongoing support.
    We know firsthand that domestic violence can have a 
devastating impact on the workplace. We also know that it is in 
the interest of all employers to provide support--not 
obstacles--to employees threatened by domestic violence. 
Business is in a unique position to deal with the dirty secret 
of domestic violence, and it is my hope that other business 
leaders around the country will join us in that effort.
    Senator Wellstone. Dr. Harman, thank you.
    I want to ask you, Ms. Rodgers, and all here--I think you 
of all people will understand this--two doors down, there has 
been a stalling tactic on the convention to end discrimination 
against women, and they need one vote for a quorum. I would 
like to suspend this committee meeting for about 3 minutes. I 
will be right back, but I want to be that vote, if that is all 
right. [Applause.]
    [Recess.]
    Senator Wellstone. I apologize, Ms. Rodgers, and I 
apologize to all of you.
    Please proceed, Ms. Rodgers, with your testimony.
    Ms. Rodgers. Please, Senator, there is no need to 
apologize. We thank you.
    I thank you for having me here and for your leadership on 
this issue and so many others, which has been absolutely 
critical to making progress on these issues. I think that your 
very short break just now is more evidence of your commitment 
to these important issues. So we thank you.
    I am Kathy Rodgers, president of NOW Legal Defense and 
Education Fund, which is the oldest and largest legal advocacy 
organization devoted to achieving women's equality.
    Two of our goals are to bring an end to violence against 
women and to eliminate barriers to women's economic security. 
So to these ends, we chair the National Task Force to end 
Sexual and Domestic Violence Against Women; we provide legal 
assistance and information to thousands of domestic violence 
survivors through our Employment Rights for Survivors of Abuse 
Project; we have partnered with companies of all sizes, 
including Fortune 500 companies, to develop best practices and 
to deal with the effects of violence against women; and we have 
authored a popular corporate handbook, ``Creating Solutions, 
Creating Change,'' which I have here and have appended to our 
testimony.
    Now Legal Defense also played a leadership role in the 
passage of the Violence Against Women Act and its 
reauthorization, and the pending Victims Economic Security and 
Safety Act, VESSA.
    So what is the scope of this problem? In a word, it is 
huge. Annually, almost 3 million people are victimized by 
intimate partners. Over one million women are stalked, and up 
to 400,000 people are raped. In each year between 1992 and 
1996, more than 2 million Americans were victims of a violent 
crime in the workplace. As many as 56 percent of battered women 
were harassed at work by their batterers. Violence against 
women is a workplace issue, plain and simple.
    Senator Wellstone. Ms. Rodgers, can I interrupt you again? 
I am looking behind you, and I can read the Congresswoman's 
face.
    Congresswoman Harman, while you are here, please join me up 
here, because you are following all the testimony anyway. 
Please join us up here--please--and when you need to leave, you 
can leave.
    Ms. Harman. I need to leave in 5 minutes.
    Senator Wellstone. All right, but I was watching, and as 
Ms. Rodgers was speaking, the Congresswoman was nodding her 
head, and I thought, ``She ought to be up here.''
    Ms. Harman. Senator, I thank you. Another time.
    Senator Wellstone. All right.
    Mr. Harman. Since you have interrupted, Senator, may I 
thank you. You spoke of the fact that Congresswoman Harman is 
seen by you frequently on television. I have been reduced to 
watching the tube in order to get a view of her, so it was a 
very special benefit to me that you arranged to have her come 
here so I could see her, literally and pleasurably, this 
morning. [Laughter.]
    Senator Wellstone. Ms. Rodgers, please continue.
    Ms. Rodgers. Usually, Representative Harman is ahead of, 
not behind, me.
    So as I was saying, there is some light in this picture, 
because much of this violence and its effects are preventable, 
and there are many low- or indeed even no-cost changes which 
employers can make to help protect victims.
    But when we suggest talking to her employer, a victim's 
first response is often: ``I am afraid to. I will lose my 
job.'' And this, as we have just heard, is a very real fear. 
One-quarter to one-half of victims lose a job due to domestic 
violence. Almost 50 percent of sexual assault survivors lose 
their jobs or are forced to quit. And outside of New York 
City--the only place that prohibits employment discrimination 
against victims of domestic violence--we cannot assure an 
employee that she can keep the job that gives her the means to 
escape the violent relationship.
    Losing a job has forced many survivors to rely on welfare. 
As many as 70 percent of women on welfare report having been a 
victim of intimate violence.
    Several studies, including one that we did, found that 
batterers sabotage their victims' efforts to move from welfare 
to work by destroying clothing, by inflicting visible injuries, 
by reneging on promises to provide child care, or keeping their 
victims up late before exams or before a job interview. Kathy 
Evsich has just made this compellingly real for all of us.
    But sound corporate and Government policies can help 
survivors keep their jobs and stay off of welfare. And forward-
thinking companies like Harman International understand the 
impact of violence on their employees. It undeniably affects 
the bottom line.
    Domestic violence alone costs employers $3 to $5 billion a 
year in missed days of work and lost productivity. Losing 
valuable employees generates substantial hiring and training 
costs. Some employers, commendably, are adopting positive 
policies. But employers that penalize victims must be directed 
to end such discrimination.
    Eighteen States have passed laws providing unemployment 
insurance to employees who leave their jobs due to domestic 
violence. This is vital, but it helps victims after they lose 
their jobs. Three States--only three--California, Maine, and 
Colorado--target preventing job loss by providing employment 
leave to domestic violence victims. Maine and Colorado also 
extend that leave to victims of stalking and sexual assault.
    Earlier this year, Maine expanded its law to cover 
employees whose children are victims. There is an interesting 
lesson in this, because the Maine State Chamber of Commerce 
recalled that they had ``expressed concerns about'' the 
original bill, but they supported the amendment, because they 
found the law to be ``relatively unburdensome to the 
workplace,'' and they heard no complaints or concerns about its 
implementation.
    So we think that there are at least five specific solutions 
to address the critical issues. The first two--the availability 
of leave and protection from discrimination--will help a victim 
keep her job. The third is eligibility for unemployment 
insurance in the event that nonetheless she must leave her job, 
perhaps to escape her abuser.
    Fourth, she should be protected from discriminatory health 
insurance coverage, which all too often leaves out victims of 
violence.
    Finally, we think that employers should be encouraged to do 
the right thing and take appropriate actions, and they could be 
with tax credits for the cost of anti-violence efforts.
    So NOW Legal Defense urges Congress to consider workplace 
violence protection policies like those that we have talked 
about, like those that are included in VESSA. This would be an 
important step forward in dealing comprehensively with the 
national issue of domestic and sexual violence and a rare 
opportunity for a real win-win for employees and employers, for 
our economy, and for our society.
    Thank you, Senator.
    [The prepared statement of Ms. Rodgers may be found in 
additional material.]
    Senator Wellstone. Thank you, Ms. Rodgers.
    I wanted to say to you that on the provisions of the 
legislation that you outline, our strategy is to have--and each 
of you have been so helpful in this regard--a formal committee 
hearing, have the testimony, and then--I do not know if in the 
time we have left this session--but now we can move this to the 
floor, and we intend to do so maybe next session, but we intend 
to do it.
    I think this is the next real area to go into, along with 
really paying special attention to children who witness the 
violence and the impact this has on kids and how to provide 
help there.
    I will start with you, Kathy, if that is okay. When you 
were going through this nightmare, was there anyplace at all 
that you felt you could turn, if I could ask such a personal 
question?
    Ms. Evsich. No. I did not realize that there were agencies 
where I could go for help. Nobody had pointed that out to me. 
The only thing I knew was my job, to get the money that I 
needed to get an apartment and to be able to take my children 
out of the home.
    Senator Wellstone. What kinds of things do you think your 
employers could have done to protect you that they did not do 
that would have helped you to keep your job?
    Ms. Evsich. I think they could have gotten a restraining 
order to keep him off the business property. They could have 
gotten the police involved. The job was only 2 minutes from the 
police department, and the police are in there constantly, 
eating. They could have gotten help from the local police 
department to keep him off the property and prevent him from 
calling.
    Senator Wellstone. If I could ask you what prevented them 
from doing this--was it just their attitude about it--why not, 
if I can ask?
    Ms. Evsich. I do not think they wanted to become involved; 
it was my problem, and they did not want to make it their 
problem.
    Senator Wellstone. And they viewed it as sort of your own 
making, too--in other words, it was your problem, and you 
really were a part of the cause of the problem, or----
    Ms. Evsich. No, I do not think they thought that I was the 
cause of the problem.
    Senator Wellstone. They just thought that it was kind of 
unpleasant and ugly, and they wanted to be away from it. Is 
that what you are saying?
    Ms. Evsich. Right. They did not want the violence being 
brought into their workplace.
    Senator Wellstone. What was the reason the employment 
agency gave you for denying you your benefits?
    Ms. Evsich. Because I was fired from my job; I was not laid 
off. And you cannot get unemployment benefits for being fired. 
I tried to appeal it, but they denied that as well.
    Senator Wellstone. That is one of the things that Ms. 
Rodgers is referring to that we would like to cover in the 
legislation.
    For the record, if you do not mind, what do you consider to 
be the most important lesson that you have learned from your 
experience that you want to the Senate to be aware of, if you 
had to just summarize--because you are here to help other 
people. So what would you say as, ``Senator, ultimately, this 
is the most important thing you all need to know''?
    Ms. Evsich. That workplaces need to know and understand the 
dynamics of abuse; that the whole aim of an abuser is to make 
the victim solely dependent upon them so they cannot leave.
    Businesses have to realize that a victim is working so that 
she can get out of the home; she needs that financial 
insurance, security, whatever you want to call it, to make 
herself free from her situation. She cannot buy clothes for her 
children, she cannot buy food for her children, or put a roof 
over their heads if she does not have the money to do it. 
Businesses need to understand that, that victims are not 
working for the pleasure of working.
    Senator Wellstone. So part of the issue is that all too 
often on the part of the abuser--and as Dr. Harman said, 
sometimes it is the other way around, but most of the time, it 
is women who are on the receiving end of this--part of it is 
their control of power, but the other thing that you are saying 
is that if we do not have a way of being economically 
independent, then we are really unable to leave the home even 
if we know it is very dangerous for ourselves and our children.
    Ms. Evsich. Right.
    Senator Wellstone. One thing I want to say to Dr. Harman 
about Teresa Duran--I have special feelings for people who are 
very human and show it, and you obviously care deeply about 
this, and your emotion was very moving--she obviously was not 
and is not a statistic to you but is someone whom you cared 
deeply about.
    And then, I guess if there is anything that is wonderful 
about it, it is that you basically decided that in honor of 
her, you were going to try to put into effect this policy that 
you talked about within the company, and I think that is 
wonderful.
    Could you describe what it means for the women in your 
workplace to know they have a place to turn to and what kind of 
feedback you are getting from actually women and men who work 
for the company about the policy?
    Mr. Harman. Senator, if I may, there are three bits of data 
that seem to me so compelling. More than three women are 
assassinated in this country every day by husbands and 
boyfriends. In a 1998 study, more than 30 percent of the women 
respondents indicated that at some point in their lives, they 
had in fact been the victims of aggressive, violent behavior by 
a husband or boyfriend, and over 74 percent of those incidents 
occurred at the workplace.
    One does not have to be a brain surgeon or a Senator to 
recognize that that is compelling evidence that something is 
wrong. And the very fact that so few people are aware of it 
prompted me in my testimony to speak of it as a ``dirty little 
secret''--well, it is a very large dirty secret.
    The response in our company has been surprising. It is a 
response shared by male and female employees alike. In the 
first place, and perhaps most meaningful to me, I have time and 
again been told by employees that they are proud of the 
company. And they do not personalize it with me; they see it as 
an expression of a company that cares.
    Senator Wellstone. And you have heard from as many men as 
women on this?
    Mr. Harman. Yes--many more female workers than male 
workers, not surprisingly; more male managers, supervisors--but 
male and female alike.
    The fact that the company cares is really meaningful to 
them. That sense that there is a place important in their lives 
that protects them is, I think, fundamental and a fundamental 
responsibility of any employer. In my judgment, no employer is 
free to feel that it is a 9 to 5 engagement. He is part of the 
community, the company is part of the community, and the 
concern must extend beyond the workplace, beyond the plant, to 
the home, to the school, to the kids, to the entire community.
    Senator Wellstone. Let me ask you this. We have talked 
about the employees. How about for the company? What has been 
the impact of this on the company?
    Mr. Harman. I must put it in context. I think that any 
company that has no other expression of concern for its 
employees is likely to find that a program of this sort is a 
dead end. It must be in the context of an overall commitment, 
even a cultural point of view that says this is part of a 
systemic approach to the relationship of the managers to the 
managed.
    If there were time, I could recite for you other 
expressions of my company's activity in that respect, but I 
think the fundamental needs to be identified. This, as 
everything else we do that is respectful of the people who do 
the work, honors the people who do the work, honors the 
company. The consequences of it are such that when, 10 years 
ago, there was a frightful earthquake in North Ridge, CA, where 
the site of our million-square-foot plant is located--North 
Ridge was at the very epicenter of the earthquake--our 
employees came to reassemble that totally destroyed plant, many 
of them traveling 8 or 10 hours a day, because as you may 
remember, the roads were destroyed. It is a cultural 
environment that this must be a piece of. When that exists, 
employees nurture the company; productivity, contributions to 
original thinking are rich, and the company and its 
shareholders are the ultimate beneficiaries.
    Senator Wellstone. Well, I quite understand why you want to 
put it in the broader context, but just to stay on the 
particular the topic of this committee hearing, part of what 
you are also saying, I gather, Dr. Harman, is that a company 
that puts into effect a policy as you have is likely to 
engender high morale among especially the women in the work 
force to know that they work for such a company. It seems to me 
from a business point of view to be a positive, I gather.
    Mr. Harman. It is without any question in my mind.
    Senator Wellstone. What about other companies and other 
CEOs? What is your candid assessment? Do colleagues talk about 
this? Is there awareness of it? Is there much leadership on it, 
or do we just have a long way to go?
    Mr. Harman. No, I have little awareness of attention to it, 
of interest in it, and for that matter even fundamental 
awareness of it. That is true at virtually every level of the 
material that I have been speaking about, and that is why I 
think the context is so critical.
    One does not generate the kind of concern and, if you like, 
the emotional responsiveness that I was guilty of earlier, in a 
vacuum. This is the consequence of a total point of view about 
the workplace and about the employees, and unless that is there 
in other firms, it is not likely that their chief executives or 
their chairmen are going to be particularly sensitive to this 
material.
    Senator Wellstone. Well, sometimes, legislation can help in 
that respect--although that is not the answer.
    Ms. Rodgers, how well do the current laws--I will be going 
tomorrow to Justin Dart's service and will be thinking about 
the Americans with Disabilities Act and the Family and Medical 
Leave Act, and Title VII--how well do they protect victims of 
domestic violence in the workplace?
    Ms. Rodgers. Senator, many of these existing statutes touch 
on pieces of this problem, but there is none that deals with it 
comprehensively, which is what would suggest taking a view 
toward a piece of legislation that says this is a big enough 
issue that we need to deal with all aspects of it and all of it 
in one place.
    For example, the Americans with Disabilities Act only deals 
with people who are disabled. Not all victims of violence are 
disabled and so would not be eligible under that act, plus it 
does not deal with the issues of unemployment insurance or 
leave policies.
    The Family and Medical Leave Act is similarly limited to 
people with serious health problems. It does not cover the 
practical problems of needing time off to go to court or to 
take care of your children's school situation or something like 
that that arises out a violent situation. Again, it does not 
deal with unemployment insurance, either.
    Title VII, I think you can make a case, and we have in one 
situation for a client out in Oregon, that firing the female 
employee who was innocent rather than the male coworker who was 
the abuser and causing the problem was sex discrimination where 
you had the victim and the abuser both working for the same 
employer.
    It would be much better and much more effective if we had a 
specific statement, a clear statement, that said that 
discriminating against a woman because of the violence in her 
life, which has nothing to do with her actions, would get to 
the heart of this issue and be much more effective.
    Senator Wellstone. How much would the policies of applying 
the Family and Medical Leave or unemployment insurance cost the 
business community?
    Ms. Rodgers. We do not have exact numbers on that. The 
Family and Medical Leave Act does not apply at the moment, but 
we have three States that do allow such leave, and I think the 
State of Maine Chamber of Commerce epiphany about this is very 
powerful. It did not have a huge impact in practice.
    I think the other thing that we have to think about in 
terms of cost is that the time off for this kind of leave, 
which does not have to be a long period of time, is an 
investment in an employee. It avoids the cost of hiring a new 
employee and training a new employee and keeps an employee very 
loyal to the employer. It is not just a cost--it is an 
investment in a good work force--not to forget the other 
ancillary benefits of the way it makes other employees feel, 
the morale factor that you were just talking about.
    Senator Wellstone. Let me ask you one final question, 
because this will probably be a very contentious issue this 
September, on the whole question of TANF and welfare reform and 
the notion of work, and then trying to reach a goal of maybe 70 
percent of the mothers working outside the home 40 hours a 
week, or 30 hours a week.
    Can you spell out for us how domestic violence, and also as 
it spills off to the workplace, would affect this requirement 
that women work? In other words, what kinds of protections do 
you need to have? If you had a situation, to be hypothetical--
and you can fill it in--where you were saying, listen, you had 
better work, and if you are not working, you are sanctioned, 
and you are off welfare, and yet that woman could not work at 
that job because of the violence, then it would seem to me, 
going back to Ms. Evsich's testimony, that in a way what you 
are doing is you are now putting her in situation where, if she 
is not going to receive the welfare benefits, she really is 
going to have to stay with her abuser, whether it be a 
boyfriend or whatever.
    Talk a little bit about how this intersects and what we 
need to be thinking about to provide protection here.
    Ms. Rodgers. Well, the short answer to that is that 
violence makes women poor and keeps women poor. It throws them 
into poverty because they lose their job or economic security. 
It keeps them in that situation because they cannot work. If 
the TANF reauthorization does not recognize the fact that a 
woman who is in a violent situation must deal with that 
situation first and get herself out of it to make herself 
workable, then it is just going to be the U.S. Government 
punishing that woman yet again for the crimes of somebody else. 
That is the U.S. Government punishing children for the crimes 
of somebody else. I do not think the Government should be in 
that business.
    We did in the original 1996 TANF manage to get the family 
violence option into the welfare reform. We had hoped it would 
be mandatory, but it was an option which said that these 
requirements could be waived for a temporary period to give the 
woman the kind of help and support she needs so that she can 
work.
    What Senators need to know is that these women want to 
work. They do not want to stay in this situation forever. But 
we as a society need to provide some support.
    The good news is that some 40-plus States have adopted 
either the family violence option or something very close to 
it. It has had some beneficial effects. We think that the 
States that have not done that should be required to do it.
    Senator Wellstone. Senator Murray and I wrote that, and we 
wanted to do it that way and could not, so we are going to have 
to revisit it.
    I want to thank all of you, and I want to tell you-- 
because again, some Senators were here, and I am not making 
excuses for anybody, but I do not want people to think it is 
due to lack of interest, and then we had the Judiciary 
Committee meeting, and a number of people, including the chair, 
had to be there--it is really important to do this, because we 
are not going to get this on the floor if we do not go through 
this committee hearing. So your testimony helps us a lot. I do 
not want anybody to think it is some sleepy meeting that is 
symbolic, and nothing is going to happen. There will be follow-
through and follow-up on what you have said.
    So I would like to thank all of you very much.
    The committee hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                   Prepared Statement of Diane Stuart
    Thank you, Senator Kennedy, Senator Gregg, and members of the 
Committee, for the opportunity to speak with you about the issue of 
violence against women in the workplace. As the Committee recognizes, 
this is a critical issue that affects thousands of American women each 
year. Violence against women in the workplace differs from other types 
of workplace violence often because of the victim's intimate 
relationship with the offender. Victims of domestic violence and 
stalking find little safety from their abusers, even in the workplace. 
However, if employers take the responsibility to put the appropriate 
protections in place, the workplace can be a safe place for women who 
experience these horrifying crimes.
    I am Diane Stuart, the Director of the Violence Against Women 
Office, a component of the Office of Justice Programs (OJP) in the U.S. 
Department of Justice. The Violence Against Women Office administers 
financial and technical assistance to communities around the country 
that are creating programs, policies, and practices aimed at ending 
domestic violence, sexual assault, and stalking wherever it may occur. 
Our mission is to provide federal leadership in developing the nation's 
capacity to: reduce violence against women; administer justice for 
victims of domestic violence, sexual assault, and stalking; and 
strengthen services for women victims of violence. The long-term goal 
of our efforts is to ensure that these crimes are viewed as 
unacceptable and are no longer tolerated in our society.
    The Violence Against Women Office is addressing the issue of 
violence against women in the workplace in collaboration with other 
federal agencies. With our colleagues in the Departments of Labor and 
Health and Human Services, as well as with other experts across the 
country, we have begun examining this issue and how we at the federal 
level can best provide assistance to employers.
    OJP's Bureau of Justice Statistics reports that an average of 1.7 
million violent incidents occur in the workplace each year. Eighteen 
percent of all violent crimes committed in this country occur in the 
workplace, and 15 percent of all violent crimes against women occur at 
work. Almost 10 of every 1,000 women in our American workforce have 
experienced violence in the workplace including incidents of murder, 
rape, and aggravated assault. Workplace homicide is the third leading 
cause of job-related deaths, according to the Bureau of Labor 
Statistics. For women, homicide is the leading cause of death on the 
job, and 20 percent of those murders were perpetrated by women's 
partners. Let me give you a few real-life examples:
    In Aurora, Colorado, Victor Cordova turned violent after his wife 
Stephanie left him. Their four-year marriage had a history of domestic 
violence. He entered the cake store where she worked and shot Stephanie 
and then turned the gun on himself. The couple had a 2-year-old 
daughter and a 6-year-old son.
    In Oklahoma County, Oklahoma, Pamela Diamond was shot and 
critically wounded when her husband visited her workplace. She had 
lived with her abusive husband for 20 years before she decided she had 
had enough. She moved out and filed a request for a protective order. 
When her husband, Jimmy Dean Harris, went to the transmission shop 
where she worked, an argument ensued and her boss stepped in to protect 
her. The boss was shot and killed and Pamela was critically wounded.
    In Grand Junction, Colorado, Sarah Miller Anderson was in the 
process of leaving her husband Chad. After a violent argument where 
Chad tried to suffocate her, Sarah filed a temporary restraining order. 
A few weeks later, Chad showed up briefly at her workplace, the City 
Market, where she worked as a checker. They spoke briefly and he left. 
Sarah didn't call the police, but called her father and asked him to 
come to the store. Before he could get there, Chad returned to the 
store and gunned down his wife, two bystanders, and himself.
    Domestic violence has unique characteristics that differentiate it 
from other forms of violence in the workplace. Domestic violence is a 
pattern of assaults and controlling behavior perpetrated by an intimate 
partner, which can be physical, psychological, and financial.
    Domestic violence spills into the workplace because it is an easy 
place for the abuser to find the victim. In most cases, the abuser is 
threatened by the fact that the victim is working outside of the home 
and feels intense jealousy and rage that her attentions are directed 
elsewhere. For many victims of domestic violence, the workplace may be 
one of the only places where they are not under the watchful eye of 
their abuser. It may be the one place where a victim is free to seek 
assistance without fear of retribution. To their credit, many employers 
have trained supervisors, employees, and support personnel on the 
dynamics of domestic violence and stalking and the appropriate 
responses to violent situations as they enter the workplace. When 
effective training occurs, coworkers and supervisors are prepared to 
assist the employee to deal with her abusive and often violent 
situation as it impacts her work environment.
    Statistics show that stalkers also commit a significant number of 
violent acts in or around the places where their victims work. A survey 
by the Justice Department's National Institute of Justice and the 
Centers for Disease Control and Prevention in the Department of Health 
and Human Services, found that the most common activity engaged in by 
stalkers included standing outside the victims' places of work. The 
survey also found that stalking victims often go to extraordinary 
lengths to keep themselves safe, including switching jobs so that 
stalkers cannot find them. Another issue coming to the forefront is a 
new and more common form of stalking harassment via e-mail or the 
Internet, so-called ``cyber-stalking.''
    The survey also examined the economic costs of stalking. Twenty-six 
percent of the stalking victims interviewed said their victimization 
caused them to lose time from work. Seven percent said they never 
returned to work at all in an effort to evade their stalkers. One 
victim interviewed for the study was even fired from her job because 
the stalker harassed her at work and disrupted the workplace. She 
eventually had to declare bankruptcy.
    Other studies show employers, as well as victims, suffer real costs 
as the result of domestic violence in the workplace. A survey by the 
American Management Association found that companies report that these 
incidents have a negative impact on employee morale, worker 
productivity, and service or product delivery. The economic effects of 
domestic violence alone can be devastating for America's businesses. 
According to the Bureau of National Affairs, American businesses pay an 
estimated $3 to $5 billion a year in medical expenses associated with 
domestic violence.
    In response to concerns about workplace violence, the U.S. Office 
of Personnel Management organized the Interagency Working Group on 
Violence in the Workplace, which developed comprehensive approaches to 
analyzing and responding to threats or incidents of violence in the 
federal workplace. As a result, OPM developed Responding to Domestic 
Violence: Where Federal Employees Can Find Help, a guidebook for 
federal employees, as well as a shorter pamphlet that has been made 
available to all federal employees in the nation.
    The guidebook serves as a model to other public employers. 
Considered one of the best of its kind, it provides concise up-to-date 
information on domestic violence, with concrete advice for the employee 
who is a victim, for friends and coworkers, and for their supervisors. 
It also guides supervisors through an array of management tools that 
can be used to assist federal employees in abusive relationships. In 
addition, the handbook includes resources for persons in abusive 
relationships, instructions for creating a safety plan, and workplace 
options for increasing safety and support.
    To help address violence against women, including workplace 
violence, at the community level, the National Advisory Council on 
Violence Against Women, in collaboration with the Departments of 
Justice and Health and Human Services, developed the Web-based Toolkit 
To End Violence Against Women. The Toolkit discusses promoting safety 
in the workplace and presents a number of recommendations that business 
and communities can consider. These recommendations include the 
development of policies, prevention strategies, referrals to service 
providers, and awareness of the issue.
    The Toolkit also includes recommendations for what sexual assault 
and domestic violence service providers can do to address violence 
against women in the workplace. The recommendations include: training 
for staff on the effects of workplace violence on victims; improved 
client intake procedures to identify victims of workplace violence; 
outreach initiatives to improve awareness among the business community; 
and the development of services for victims of workplace violence in 
coordination with local businesses, labor organizations, and community 
groups.
    A number of private companies have taken the initiative to create 
model violence awareness and prevention programs for their employees. 
Last month I had the opportunity to speak at an FBI Symposium on 
Workplace Violence where an entire day was devoted to the issue of 
domestic violence in the workplace. The Symposium was attended by a 
wide audience, including law enforcement officials, prosecutors, 
policymakers, victim advocates, and private industry. Several of the 
presenters represented large corporations. I was amazed and inspired by 
the creative approaches these companies have taken, not only to create 
plans for handling violence in the workplace, but also to educate the 
general public on the issue through publications, community service, 
and public service announcements. And, many employers have displayed 
remarkable innovation in the development of their policies and programs 
related to domestic violence. Through their good work, they are not 
only setting an example for other employers and creating a work 
environment where employees can feel safe, they are helping to change 
the business community's approach towards violence against women.
    The Violence Against Women Office is working to further efforts 
such as this and to enable even small businesses to assist employees 
threatened by violence. In 2001, the Office provided funding support to 
the Family Violence Prevention Fund (FVPF) to develop state leadership 
teams of businesses, victim services, and law enforcement and to create 
models of multi-disciplinary responses to domestic violence in the 
workplace. FVPF is a nonprofit victims advocacy group that, for more 
than 20 years, has been a leading voice on addressing the issue of 
violence against women in the workplace.
    Under the National Corporate Citizenship Initiative on Domestic 
Violence, FVPF is helping 20 state leadership teams to develop action 
plans to improve their state's workplace response to domestic violence. 
The teams are examining issues such as how employers should address 
employees who perpetrate domestic violence and how to reach out to 
immigrant and refugee workers who are being abused. FVPF also is 
helping the state leadership teams to improve workplace responses to 
domestic violence in their states by convening meetings to highlight 
promising practices, distributing a model policy on how employers 
should address the problem of employees who are perpetrating domestic 
violence, and working with the National
    Center for Victims of Crime to develop a protocol on how employers 
and law enforcement should work together to assist employees threatened 
by domestic violence.
    The Justice Department's Office for Victims of Crime (OVC) has also 
worked with FVPF to address the problem of violence against women in 
the workplace. OVC funding helped establish the National Workplace 
Resource Center on Domestic Violence, an FVPF project that serves as a 
clearinghouse of information on national and local responses to 
domestic violence as a workplace issue.
    OVC also produced an award-winning video, entitled Domestic 
Violence: The Workplace Responds, that outlines steps workplaces can 
take to help employees who are in abusive relationships. The OVC video 
incorporates testimony from survivors of domestic violence, their 
coworkers and employers, and experts about the impact of domestic 
violence on the workplace. A companion training package for employers 
concerned about protecting and supporting victims of domestic violence 
is also available through the Family Violence Prevention Fund.
    In addition, I want to make you aware that through its 
Administration for Children and Families (ACF), the Department of 
Health and Human Services is working to address violence against women, 
including workplace violence. For example, ACF provides funding through 
the Family Violence Prevention and Services Act to support the Domestic 
Violence Resource Network (DVRN), which provides critical expertise and 
leadership for the domestic violence field. Members of the DVRN work in 
partnership to ensure that domestic violence-related training and 
technical assistance available throughout the country is complementary, 
comprehensive, appropriate, and informed by the entire network. The 
network strengthens existing support systems serving battered women, 
their children, and other victims of domestic violence.
    The members of the Network are: the National Resource Center on 
Domestic Violence; the Battered Women's Justice Project; the Resource 
Center on Child Protection and Custody; The Sacred Circle, a resource 
center for Indian tribes and tribal organizations; and the Health 
Resource Center on Domestic Violence. Each of these resource centers 
creates partnerships with community-based domestic violence programs, 
state coalitions, federal, state, and local public agencies, and others 
involved in assisting victims of domestic violence. Each conducts a 
variety of activities, including: technical assistance, training, 
policy development, identification of model programs, development of 
policies and publications, and assistance to federal, state, and tribal 
agencies. The demand for technical assistance from the resource centers 
has far exceeded expectations. Calls come from every state and 
territory and many tribes.
    Each resource center is charged with a specific domestic violence 
subject area. The Health Resource Center on Domestic Violence, which is 
operated by the Family Violence Prevention Fund, provides training, 
technical assistance, and information on the issue of violence against 
women in the workplace. The Health Resource Center reports that 94 
percent of corporate security directors rank domestic violence as a 
high security problem at their company and 71 percent of human 
resources and security personnel surveyed had an incident of domestic 
violence occurring on company property. The center provides information 
on how individuals in a violent relationship can make a safety plan at 
work and how companies can become involved in the issue of domestic 
violence in order to insure a safe workplace for their employees.
    As you know, Mr. Chairman, the Violence Against Women Act of 2000 
requires the Department of Justice to develop a report to Congress on 
violence against women in the workplace. The Violence Against Women 
Office is in the process of writing this report and has engaged FVPF to 
help it fulfill this mandate. The report will describe the results of a 
national survey of plans, programs, and practices developed to assist 
employers and employees on appropriate responses related to victims of 
domestic violence, stalking, or sexual assault in the workplace. The 
report also will analyze the effects of these crimes on small, medium, 
and large businesses, including data on productivity and performance, 
and will include recommendations to assist employers and employees 
affected in the workplace by incidents of domestic violence, stalking, 
and sexual assault. As an additional tool for researchers and policy 
makers, the report will provide Congress with an annotated bibliography 
of current resources available to assist employers and employees to 
develop appropriate responses to domestic violence. We hope that this 
report will make a significant contribution to the understanding of the 
issue of violence against women in the workplace.
    Through these and other initiatives, the Department of Justice is 
working with its colleagues in the private and public sector to better 
understand and address the problem of violence against women in the 
workplace. From our work on this issue, we have learned that it is only 
through a coordinated, community response that we can be successful in 
our efforts to end violence against women. Working in partnership with 
employers, we can help to educate them about the dangers of domestic 
violence, sexual assault, and stalking and assist them with 
establishing effective policies and programs. Employers play a unique 
and vital role in helping to change attitudes and perceptions regarding 
violence against women, and we must continue to be supportive in their 
efforts. Violence against women in the workplace is a criminal justice 
issue, a health issue, and an economic issue. If we are to make any 
headway in eliminating its threat, the public and private sectors must 
work in collaboration. Women's lives depend upon it.

                Prepared Statement of Liz Claiborne Inc.

    Liz Claiborne Inc. has been intimately involved in raising funds, 
generating awareness and educating the public about domestic violence 
for more than ten years in what is a true commitment to help 
communities mobilize against this crime.
    We do this because we believe we have a responsibility to give back 
to the people who make us successful--our consumers and our employees. 
And because preventing domestic violence makes sense from a business 
perspective--you can't have a healthy business without healthy 
consumers and healthy employees.
    With more than half of the women in America working outside the 
home, business leaders need to recognize that domestic violence is not 
just a private family issue. It's a bottom-line issue too. It is proven 
to raise absenteeism and health care costs, and it drives down 
productivity, We at Liz Claiborne believe we cannot afford not to be 
involved.
    Unfortunately, not everyone agrees. In 1994, we commissioned Roper 
Starch Worldwide to probe corporate leaders on their awareness of the 
domestic violence problem and sense of corporate accountability. The 
one hundred companies involved were selected at random from the list of 
the Fortune 1000.
    57% of the business leaders polled consider domestic violence a 
major social problem.
    33% say domestic violence affects their balance sheet.
    A startling 40% are personally aware of employees in their company 
who have been affected by domestic violence.
    66% agree that a company's financial performance would benefit from 
addressing the issue among its employees, with nearly half identifying 
loss of productivity, decreased attendance and rising health care costs 
as areas where domestic violence drags down bottom line performance.
    Yet for all this, only 12% of the 100 senior executives polled say 
that corporations should play a major role in addressing the issue--
even though the majority either sponsored domestic violence awareness 
and support programs or domestic violence counseling and assistance 
programs for their employees in need. Regardless of their recognition 
of and in many cases action on this issue, a striking 96% of those 
asked still feel domestic violence should be addressed primarily by the 
family. We are benchmarking the survey this year and arc hoping to see 
that attitudes have changed.
    We could not disagree more. At Liz Claiborne, we seek to create an 
environment of support for our employees who may need help and to 
encourage others to speak out and thereby reject relationship abuse.
    To accomplish this, we have a multi-faceted internal effort that 
includes an ongoing Employee Assistance Program (EAP) that provides 
year-round and around the clock offsite, confidential assistance in 
coping with family matters, and drug, alcohol and financial crises.
    We promote both our EAP and the rational Domestic Violence hotline 
numbers throughout the Company via: Inserts in paychecks, Rolodex 
cards, Posters in rest rooms, E:mail messages, and Articles in the 
Company newsletter.
    We participate in National Domestic Violence Awareness Month by 
distributing educational materials throughout the Company. We have a 
Domestic Violence Task Force that includes members of Human Resources, 
Legal, Security and Corporate Communications. This year we have again 
partnered with Safe Horizon, a non-profit victim assistance, advocacy 
and violence prevention organization in New York City, to conduct a 
policy and protocol training session for our human resources and 
security departments. It is our goal to repeat and extend these 
sessions or ones like them for all managers and supervisors so that 
they can be sensitive to and recognize signs of abuse.
    We address domestic violence in our employee handbook so that Liz 
Claiborne associates can see in print the options that are available to 
them. Our Domestic Violence policy provides guidance for employees and 
management to address the occurrence of domestic violence and its 
effects in the workplace. Our Workplace Violence policy addresses the 
safety and security of all our employees and defines consequences for 
violation of the policy, investigation procedures and disciplinary 
actions.
    We educate our employees by disseminating brochures and memos that 
not only provide information on domestic violence, but more importantly 
outline the lengths to which our Company will go to help victims feel 
safe--because we know that as critical as education, is action.
    Our Security staff, which includes 45 uniformed officers, a six-
person in-house security management team, and a six-person proprietary 
dispatch center, have officers on duty 24 hours a day, seven days a 
week. There is also a 24-hour confidential hotline number that is 
listed on the back of every employee's ID card.
    We take a number of steps to help employees who are in abusive 
situations--and those around them--to feel ``safe'' in the workplace. 
For example we: Assign special parking spots, Offer escorts to cars or 
other points of transportation, Educate victims about the resources 
available to them, Allow time off so associates can seek safety and 
protection, attend court appearances, arrange for new housing or take 
care of such matters, and Arrange for flexible hours and short term 
leaves of absence.
    The Company will also assist associates who are perpetrators of 
abuse in finding appropriate Batterers' Intervention Programs.
    But we do not have all the answers. We're still discovering new and 
better ways to create an environment of support within the Company 
itself and get our message out to an even broader audience.
    From our experience we would say to any corporation, test the 
waters. Companies large and small can take action. It does not cost 
much to place a hotline number in a bathroom or break area--but it 
could make a huge difference in the life of a victim.
    Ultimately, we need to work together to create an environment that 
deems domestic violence unacceptable and intolerable.

                  Prepared Statement of Kathy Rodgers

                              INTRODUCTION

    Thank you for the opportunity to testify today. NOW Legal Defense 
and Education Fund has been working for more than thirty years to 
define and defend women's rights, Our major goals include helping to 
bring an end to violence against women, and eliminating barriers that 
deny women economic opportunities. Today's hearing is an opportunity 
for me to discuss where those two goals intersect, and steps that can 
be taken to move toward achieving both.
    NOW Legal Defense chairs the National Task Force to End Sexual and 
Domestic Violence Against Women, which includes over 2,000 national, 
state, and local organizations. NOW Legal Defense also provides legal 
assistance and information to thousands of domestic violence survivors 
through our ``Employment Rights for Survivors of Abuse'' project. In 
that vein, we have also worked with corporations across the country, 
including Liz Claiborne, American Express, Colgate-Palmolive, Polaroid, 
and others, to develop best practices for a companies in their efforts 
to deal with the effects of violence against women in their workplaces. 
NOW Legal Defense has also authored a popular handbook, ``Creating 
Solutions--Creating Change,'' which demonstrates the impact of violence 
in the lives of working women and provides guidance and solutions to 
corporations and others who work to address these issues.
    NOW Legal Defense is also proud to have participated in the 
crafting and in leading support for the Violence Against Women Act of 
1994, its reauthorization in 2000, and the pending Victims' Economic 
Security and Safety Act (VESSA, [S. 1249, H.R. 2670]), which will 
address some of the terribly difficult work situations that survivors 
of domestic and sexual violence face.

               PREVALENCE OF DOMESTIC AND SEXUAL VIOLENCE

    Let me begin by briefly describing the scope of the problem. Since 
Congress passed the Violence Against Women Act in 1994, domestic and 
sexual violence has been reduced, but it is still a problem of epidemic 
proportions. According to the U.S. Department of Justice, ``the rate of 
intimate partner violence against women decreased 21 percent from 1993 
to 1998,'' but intimate partners continue to commit violent crimes at 
the rate of 937,490 annually against women and 144,620 against men. 
Another Department of Justice report estimates that 2,800,000 people 
are victimized by intimate partners annually. Over one million women 
and over 370,000 men are stalked annually in the United States, and 
260,000 to 400,000 people are victims of rape annually.
    Twenty-five percent of women surveyed were raped and/or physically 
assaulted in their lifetime by an intimate partner, compared with eight 
percent of men. This includes women of all backgrounds: 24.8 percent of 
white women, 29.1 percent of African-American women, 37.5 percent of 
American Indian/Alaska Native women, and 15.0 percent of Asian/Pacific 
Islander women have been raped, physically assaulted or stalked by an 
intimate partner in their lifetimes. In each year between 1992 and 
1996, more than two million U.S. residents were victims of a violent 
crime in the workplace. About 50,500 individuals, 83 percent of whom 
are women, were raped or sexually assaulted in the workplace each year 
during this periods.

                    VIOLENCE HURTS WOMEN ON THE JOB

    Domestic violence is a workplace issue, plain and simple. Violence 
may enter the workplace when abusers attempt to sabotage their victims 
ability to work productively by threatening, attacking, stalking, or 
harassing their victims at work. Between 35 and 56 percent of battered 
women in three separate studies reported that they were harassed at 
work by their batterers.
    Fortunately, some of this violence is preventable. There are many 
low- or no-cost changes that an employer can make in the workplace that 
reduce a batterer's opportunity to harass, threaten or harm an employee 
during the work day. For example, in order to stop phone harassment, an 
employer can change an employee's phone extension or route calls 
through a receptionist. If a batterer has threatened to come to the 
workplace, registering a copy of the protective order with building 
security or transferring the employee to another job site or shift may 
be appropriate. What will work in an individual case will differ based 
on the nature and seventy of the violence involved and the type of the 
employee's job and the employer's business.
    But, an employer cannot take any steps--to increase safety or to 
help a good employee keep her job while she is dealing with domestic or 
sexual violence--unless the employer hears from the employee. The 
problem is, however; when we suggest that individuals talk to their 
employers to find a solution to workplace violence, victims' first 
response is often, ``I am afraid to tell my employer, because I might 
lose my job.'' This is a very real fear. Between one quarter and one 
half of domestic violence victims surveyed in three separate studies 
reported they lost a job due, in part, to domestic violence. Similarly, 
almost fifty percent of sexual assault survivors lose their jobs or are 
forced to quit in the aftermath of the crime. More than one quarter of 
stalking victims report losing time from work due to stalking and seven 
percent never returned to work. Outside of New York City--the only 
jurisdiction that explicitly prohibits employment discrimination 
against victims of domestic violence--we cannot assure an employee that 
no one can take an adverse job action against her--just for asking for 
help.
    We have learned through our work that all too often employers 
discriminate against domestic violence victims by firing or 
disciplining them, simply because they are in an abusive relationship. 
We have also learned that for many survivors of domestic violence, 
having a job is a key factor in successfully escaping a violent 
relationship. A job provides the economic security they need to leave 
their abusers. Although legislatures and executives across the country 
have recognized the need to prohibit discrimination against employees 
because they are victims of domestic or sexual violence, existing laws 
and policies apply in narrow circumstances only (e.g., only protecting 
state employees). If Congress prohibits such discrimination, and 
employees throughout the country know their employers cannot 
discriminate against them for disclosing that they are victims of 
domestic or sexual violence, they are more likely to come forward and 
talk with their employers about their situations and about how to make 
the workplace safer for them and their co-workers.
    The need for proactively addressing this issue is clear from the 
statistics and is directly supported by the experiences we hear from 
individuals about their own experiences. Let me give you a sampling of 
these stories.
    One woman was fired simply for asking her employer to lock the door 
the day after she left her batterer. She worked at a small clothing 
manufacturing facility that was not open to the public, so locking the 
door would not have disrupted her employer's business. In another case, 
a woman in Oregon was fired after her batterer smashed her car 
headlights in the employee parking lot and told their joint employer 
that he would kill her if she continued to work there. The employer 
fired her, but retained her batterer despite the fact that he was the 
one who was violent at work.
    One client of our ``Employment Rights for Survivors of Abuse'' 
project, from Oregon, was fired after she obtained an order of 
protection against her batterer who was a co-worker at the same office. 
In several cases, women had to leave their jobs in order to get 
themselves and their children safe and, because they were in one of the 
thirty-two states that do not have laws stating that leaving due to 
domestic violence is ``good cause,'' they needed assistance to appeal 
denials of their applications for unemployment insurance.
    A woman from California contacted us because her abuser, a co-
worker, transferred to her office in order to continue to harass her 
while at work. When she told her supervisor, he advised her not to talk 
about the abuse because, he said, it could be slander. He also 
suggested that she should transfer if she was uncomfortable, because 
they would not take any action on her behalf to remove her abuser from 
her work site.
    A woman working in New York used her available sick days to take 
time off to heal from injuries inflicted by her abusive ex-boyfriend. 
However, upon her return to work; her supervisor began insulting her 
and teasing her about being a victim of domestic violence in front of 
the other employees, and then fired her. An employee in New Jersey 
asked her employer to change her phone extension because her ex-
boyfriend was harassing her, The employer denied her request and then 
fired her.
    Studies, as well as our experience at NOW Legal Defense, show that 
victims of domestic violence, sexual assault, and stalking are treated 
differently than other crime victims. They are subjected to adverse 
treatment, perhaps in part due to stereotypes about domestic violence 
and sexual assault. We believe legislation such as VESSA is carefully 
tailored to respond to a particular and documented need.
    Until the current law is improved, women will continue to be forced 
to decide which is worse: staying silent and putting up with harassment 
and violence, or speaking up and hoping their employers do not fire 
them.

ADDRESSING THE IMPACT OF DOMESTIC AND SEXUAL VIOLENCE IN THE WORKPLACE 
WILL HELP KEEP PEOPLE OFF WELFARE, AND HELP RECIPIENTS GO FROM WELFARE 
                                TO WORK

    Not surprisingly, the economic devastation following the loss of 
their jobs has forced many survivors of domestic and sexual violence to 
rely upon welfare. As many as 70 percent of women on welfare report 
having been a victim of intimate violence at some point in their adult 
lives, and as many as 30 percent report abuse within the last year. By 
addressing the employment needs of victims of domestic violence, 
Congress will help many survivors keep their jobs, secure their 
economic independence, and stay off welfare. It's an investment with a 
big payoff.
    Addressing the impact of domestic and sexual violence in the 
workplace is critical for women who are moving from welfare to work. 
Historically, women have relied on welfare to bridge the gap when they 
lose jobs due to domestic violence or leave batterers who contribute to 
household expenses. Studies confirm that from fourteen percent to 
thirty-two percent of welfare recipients are being abused by their 
current partners. It would be a tragedy for a woman to make the 
transition from welfare into a new job, only to be fired when she 
speaks to her new employer about domestic violence.
    Batterers often take actions intended to prevent their victims from 
making the transition back into employment. In 1996, NOW Legal Defense 
surveyed 25 job-training providers in New York City. The providers 
reported that batterers sabotaged their victims' attempts at economic 
independence by destroying clothing, inflicting visible injuries, 
reneging on promises to provide child care, or keeping their victims up 
late at night before critical events like exams and job interviews.
    Studies conducted elsewhere confirm these findings. For example, a 
study of domestic violence victims in Wisconsin who were former or 
current public assistance recipients revealed a very troubling pattern: 
one out of three reported that they had lost a job due to the violence. 
They also reported their batterers engaged in behavior that made it 
more difficult for them to work. More than half reported their 
batterers threatened them to the point they were afraid to go to school 
or work, and others reported their batterer refused child care at the 
last minute or inflicted physical injuries. Workplace protections for 
these victims are needed to enable women who have made the transition 
from welfare to work to build on their achievements instead of being 
pulled back by abusive partners. Congress should ensure that welfare 
agencies and welfare-to-work employers support survivors, rather than 
discriminate against them or otherwise hinder their ability to get and 
keep permanent jobs.

STATE AND LOCAL POLICYMAKERS THROUGHOUT THE NATION ARE RECOGNIZING THE 
   IMPORTANCE OF ADDRESSING THE EFFECTS OF DOMESTIC VIOLENCE IN THE 
                               WORKPLACE

    Across the country, there is a growing recognition of the need to 
combat the effects of domestic and sexual violence on the workplace. 
States, counties, and cities have enacted laws that provide assistance 
to some employees who are victims of domestic and sexual violence. But, 
current laws are still inadequate. To date, only New York City 
prohibits employers from discriminating against domestic violence 
victims.
    Eighteen states have passed laws providing unemployment insurance 
to employees who leave their jobs due to domestic violence. 
Unemployment insurance is vital, but it only addresses the problem 
after the victim loses her job.
    Three states--California, Maine, and Colorado--have recognized the 
importance of preventing job loss by providing employment leave to 
domestic violence victims in order to go to court, go to the doctor, or 
take other steps to address the violence. Maine and Colorado extend the 
availability of leave to victims of stalking or sexual assault (and a 
similar amendment to California's leave law has passed the Assembly and 
is now before the State Senate).
    Maine was the first state to pass an employment leave law for 
victims of domestic and sexual violence. Since 1999, all private and 
public employers in Maine have been required to grant ``reasonable and 
necessary leave from work'' for employees who have been victims of 
domestic violence, sexual assault, or stalking to ``[p]repare for and 
attend court proceedings,'' ``[r]eceive medical treatment,'' or 
``[o]btain necessary services to remedy a crisis caused by [the 
violence].'' Earlier this year, the law was expanded to cover employees 
whose child was a victim. The Maine State Chamber of Commerce wrote to 
the State legislature to express support for the expansion of the leave 
law. In that letter the organization stated that when the leave law was 
originally introduced, ``the Maine State Chamber expressed concerns 
about the bill,'' but the letter goes on to say:
    Despite our original reservations the bill became law and has been 
in place for the last two years, During this time this organization has 
heard no complaints or concerns with its implementation. It appears 
that the bill supporters were correct regarding its application and its 
impart on the workplace.
    It is for this reason we believe it is appropriate to extent [sic] 
the same leave opportunities for parents of children who are 
unfortunate enough to be victims of violence.
    We believe this bill, like the current law, is appropriate given 
the difficult times we now live in. While we hope that someday we will 
be in the position that individuals and families do not need to access 
leave for these very troublesome situations, we recognize that should 
they need to do so, such leave is appropriate and relatively 
unburdensome to the workplace. It is for these reasons we would again 
reiterate our support for LD 1960.
    Notably, each of the state leave laws prohibits employers from 
discriminating against employees who have requested or taken the 
domestic violence leave provided in the law.
    A few other states have prohibited employers from discriminating 
against or firing domestic violence victims in certain, narrow 
circumstances. New York State employees are protected by the State 
Domestic Violence Policy, which states that agencies must ``[e]nsure 
that personnel policies and procedures do not discriminate against 
victims of domestic violence and are responsive to the needs of victims 
of domestic violence.'' New York State law also prohibits employers 
from discharging crime victims for taking time off to get an order of 
protection. Similarly, Rhode Island prohibits employers from 
discriminating against employees because they have obtained or sought a 
civil order of protection. The state of Maryland prohibits state 
agencies from treating their employees unfairly based solely on their 
status as victims of domestic violence. These laws, however, are of no 
use to the battered woman who works for a private employer. Without 
similar workplace protections, she has no assurance that her employer 
cannot discharge her or retaliate against her just because she is in an 
abusive relationship or dares to come forward to ask for a small 
adjustment in her job structure to prevent harassment by her batterer 
at work.
    NOW Legal Defense urges Congress to consider workplace violence 
protection policies, such as those included in legislation such as 
VESSA. This would be an important step forward in dealing 
comprehensively with domestic and sexual violence and its effects in 
the workplace.

        ADDRESSING DOMESTIC AND SEXUAL VIOLENCE IS GOOD BUSINESS

    Forward-thinking companies, such as Harmon International under the 
visionary leadership of my fellow panelist, have realized that 
addressing the effects of violence against women in their workplaces is 
simply good business practice. These corporations understand that this 
issue affects their most important asset--their employees--and so 
undeniably affects the corporate bottom line. Domestic violence costs 
employers at least $3 to $5 billion a year in missed days of work and 
reduced productivity. These figures do not begin to address the costs 
of additional security, liability, and employee assistance benefits, or 
the toll violence takes on women's personal economic security.
    Legislation assisting victims of domestic violence, sexual assault 
and stalking to retain their employment will benefit employers as well. 
Sixty-six percent of senior business executives surveyed said their 
companies' financial performances would benefit by addressing the issue 
of domestic violence among their employees. Maine's expansive leave law 
(which applies to all private and public employers in the state) has 
been found by the Maine State Chamber of Commerce to be both 
``appropriate and relatively unburdensome'' to businesses. A number of 
businesses have recently voluntarily adopted policies and procedures to 
address the issues of domestic violence, sexual assault and stalking 
among their employees. The growing realization that violence suffered 
outside the workplace affects employee productivity and retention was 
also reflected in a study showing that 78 percent of human resources 
professionals and 94 percent of corporate security and safety directors 
at companies nationwide rank domestic violence as a high security 
concern.
    In addition to costs associated with diminished productivity, 
businesses often lose valuable employees when those employees are 
victimized. Losing loyal and experienced employees generates 
substantial hiring and training costs, which would be largely avoided 
by addressing the impact of domestic and sexual violence in the 
workplace.

                               CONCLUSION

    Charlene's story is a fitting conclusion to this testimony. 
Charlene is married to an abusive man who regularly harasses, 
threatens, and hits her. One evening, he new into a rage, because she 
said she was considering leaving him, and beat her particularly 
brutally. She came into work the next day and explained to her 
supervisor that her injuries were the result of domestic violence. Her 
boss brought her to speak with someone in Human Resources who had 
received training in working with employees who are victims of sexual 
assault, domestic violence, or stalking. She helped Charlene contact a 
local domestic violence service provider. The employer gave Charlene 
the rest of the day off to meet with a counselor and figure out what 
other steps to take. When she realized she would need several days off 
to get a restraining order and move into a shelter, Charlene called her 
boss, who agreed that she could miss two more days of work.
    Before returning to work, Charlene and a counselor at the shelter 
contacted her employer to discuss the safety plan they had developed. 
The employer agreed to allow Charlene to vary her start and end times 
by up to one hour. Then, Charlene, the employer, and the counselor 
agreed that Charlene could be out of the office two afternoons per 
month to attend group counseling sessions, and she could make up the 
time on other days.
    Was Charlene one of the lucky few who happen to work for an 
understanding and accommodating employer? No, this story is fictional. 
The real story is the one we began with. But Charlene's story is 
possible in the near future.
    Congress has the power to bring greater safety and economic 
security to all victims of domestic violence, sexual assault, and 
stalking, as well as to their employers and their coworkers. I urge you 
to consider and support meaningful workplace protections for victims of 
such violence.
    Availability of leave, protection from discrimination, and 
eligibility for unemployment insurance can help survivors keep their 
jobs, maintain their economic independence, and remain safe from future 
violence. Victims of domestic or sexual violence need to know they can 
go to court to get an order of protection, seek shelter, or talk to 
their employers about how to make themselves and their co-workers safe, 
without fear of losing their jobs.
    Some employers are taking a leading role in addressing violence by 
adopting policies, promoting workplace education, and developing 
appropriate security and safety plans. While those employers should be 
supported and encouraged, other employers that penalize or retaliate 
against employees who have experienced domestic violence, sexual 
assault, or stalking must be directed to end such discrimination.
    For a woman to survive violence and move on with her life, she 
needs more than luck and fortitude: she needs to be able to financially 
support herself and get the help she needs without fearing the loss of 
her job. A woman deserves a guarantee that she will not lose her job 
and therefore her economic security because she needs to go to court, 
take time to talk to her children's child care center about the issue, 
or see a physician after she's been attacked. If she must leave her 
work due to the violence, then unemployment compensation should be 
available to enable her to get back into the workforce as soon as 
possible. As a caring society, we cannot allow a woman who has suffered 
a violent attack to be further victimized by her employer.

    [Whereupon, at 11:43 a.m., the committee was adjourned.]


</pre></body></html>
